<html>
<title> - ADEQUACY OF THE DEPARTMENT OF. HEALTH AND HUMAN SERVICES' EFFORTS TO PROTECT UNACCOMPANIED ALIEN CHILDREN FROM HUMAN TRAFFICKING</title>
<body><pre>[Senate Hearing 114-290]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-290

                  ADEQUACY OF THE DEPARTMENT OF HEALTH
                 AND HUMAN SERVICES' EFFORTS TO PROTECT
          UNACCOMPANIED ALIEN CHILDREN FROM HUMAN TRAFFICKING

=======================================================================

                                HEARING

                               BEFORE THE

                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                                 OF THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               ----------                              

                            JANUARY 28, 2016

                               ----------                              

        Available via the World Wide Web: http://www.fdsys.gov/
        

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
                         U.S. GOVERNMENT PUBLISHING OFFICE
20-285 PDF                    WASHINGTON : 2016                         

_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="83e4f3ecc3e0f6f0f7ebe6eff3ade0eceead">[email&#160;protected]</a>  




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk


                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                       ROB PORTMAN, Ohio Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
KELLY AYOTTE, New Hampshire          HEIDI HEITKAMP, North Dakota
BEN SASSE, Nebraska

                     Brian Callanan, Staff Director
        Margaret Daum, Minority Staff Director and Chief Counsel
                       Kelsey Stroud, Chief Clerk
                            
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Portman..............................................     1
    Senator McCaskill............................................     5
    Senator Johnson..............................................     7
    Senator Carper...............................................     8
    Senator Lankford.............................................    24
    Senator McCain...............................................    28
Prepared statements:
    Senator Portman..............................................    51
    Senator McCaskill............................................    57

                               WITNESSES
                       Thursday, January 28, 2016

Mark Greenberg, Acting Assistant Secretary, Administration for 
  Children and Families, U.S. Department of Health and Human 
  Services; accompanied by Robert Carey, Director, Office of 
  Refugee Resettlement, U.S. Department of Health and Human 
  Services.......................................................    10
Tiffany Nelms, Associate Director, Unaccompanied Children's 
  Services, U.S. Committee for Refugees and Immigrants...........    35
Jennifer Justice, Deputy Director, Office of Families and 
  Children, Ohio Department of Job and Family Services...........    37
Kimberly Haynes, Director for Children's Services, Lutheran 
  Immigration and Refugee Service................................    39

                     Alphabetical List of Witnesses

Greenberg, Mark:
    Testimony....................................................    10
    Prepared statement...........................................    61
Haynes, Kimberly:
    Testimony....................................................    39
    Prepared statement...........................................    87
Justice, Jennifer:
    Testimony....................................................    37
    Prepared statement...........................................    83
Nelms, Tiffany:
    Testimony....................................................    35
    Prepared statement...........................................    78

                                APPENDIX

Majority Staff Report............................................   101
Mark Greenberg letter to Senator McCaskill.......................   412
UAC Apprehensions Chart..........................................   416
Apprehensions: First Quarter Chart...............................   417
Kimberly Haynes FAQ and Statement of Principles from the Lutheran 
  Immigration and Refugee Service................................   418
Statements for the Record from:
    Church World Service.........................................   427
    The Young Center.............................................   428
    We Belong Together...........................................   433
Responses to post-hearing questions for the Record from Mr. 
  Greenberg and Mr. Carey........................................   435

 
                     ADEQUACY OF THE DEPARTMENT OF.
                 HEALTH AND HUMAN SERVICES' EFFORTS TO
      PROTECT UNACCOMPANIED ALIEN CHILDREN FROM HUMAN TRAFFICKING

                              ----------                              


                       THURSDAY, JANUARY 28, 2016

                                   U.S. Senate,    
              Permanent Subcommittee on Investigations,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Rob Portman, 
Chairman of the Subcommittee, presiding.
    Present: Senators Portman, McCain, Lankford, Ayotte, 
Johnson, McCaskill, Tester, Heitkamp, and Carper.
    Staff present: Brian Callanan, Matt Owen, Rachael Tucker, 
Margaret Daum, Mel Beras, Kelsey Stroud, Will Council, Richard 
Marquez, Crystal Higgins, Brandon Reavis, Eric Bursch, Liam 
Forsythe, Stephanie Hall, Mark Delich, Quin Roberts, Molly 
Sherlock, Monica Carmean, Sarah Seitz, Samantha Roberts, Holly 
Idelson, Melissa Egred, Brooke Ericson, and Joske Bautista.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. This hearing will come to order.
    Six months ago, many of my constituents in Ohio opened 
their morning papers to read the shocking news that law 
enforcement had discovered a human-trafficking ring operating 
in Marion, Ohio--a small town about 50 miles north of Columbus, 
Ohio.
    Six defendants were charged with enslaving multiple 
victims, including more than six migrant children from 
Guatemala, on egg farms in Marion County, Ohio. The details of 
the crime laid out by U.S. Attorney Steve Dettelbach were 
chilling. Traffickers lured the child victims to the United 
States with the promise of schooling and a better life. The 
parents of some of the victims even signed over the deeds to 
their properties back home as collateral for debt incurred to 
pay for the journey. But not long after their arrival, these 
children--some as young as 14 years old--were forced to work 12 
hours a day, 6 to 7 days a week. The work was grueling. And the 
living conditions were squalid, with children packed into a 
dilapidated trailer. They said that some of the kids were 
living on mattresses underneath the trailer.
    To compel them to work, the traffickers withheld their 
paychecks and threatened their families. As the indictment lays 
out, the defendants, and I quote, ``used a combination of 
threats, humiliation, deprivation, financial coercion, and debt 
manipulation'' to create ``a climate of fear and 
helplessness.'' Five of the six defendants have now pled 
guilty.
    It is intolerable that human trafficking--modern-day 
slavery--could occur in our own backyard in the 21st Century. 
But it does. What makes this Marion case even more alarming is 
that a U.S. government agency was actually responsible for 
delivering some of the victims into the hands of their abusers.
    In 2014, more than six of the children found on the Marion 
egg farms traveled, without their parents, across Central 
America to our Southern Border. When they arrived here, they 
were entrusted to the U.S. Department of Health and Human 
Services (HHS), like thousands of other unaccompanied children 
(UAC) who have been detained at the border. Under Federal law, 
it is then HHS' job to find and vet a relative or trusted 
family friend to care for the child until their immigration 
court date or else house them in safe shelters. Instead, HHS 
delivered the Marion children into the hands of a human-
trafficking ring that forced them into these slave labor 
conditions we talked about.
    How could this have happened in America?
    After the release of the indictment last summer, Senator 
McCaskill and I launched an investigation to find out. How did 
HHS hand over a group of children to human traffickers? Was it 
a tragic failure to follow agency procedure in each of these 
cases? Or was the problem that the agency's procedures do not 
work and need reform? These were very important questions not 
only because of the Marion cases, but because of the number of 
additional children who are at risk.
    Over the past 2 years, HHS has placed about 90,000 migrant 
children--the vast majority from Central America--with adult 
sponsors in the United States. That surge of migrant children 
coming into the United States illegally is a topic of some 
debate. There is certainly evidence that this Administration's 
executive actions on immigration encouraged the surge. But 
whatever your views on immigration policy, everyone should be 
able to agree that the Administration has a responsibility to 
ensure the safety of the migrant kids that have entered 
government custody until their immigration court date.
    Unaccompanied children are uniquely vulnerable to human 
trafficking because many are in debt to the smugglers who 
arrange for their passage. The risk is that the smugglers may 
then force them to work off that debt once they arrive. That is 
why Federal law specifically provides that HHS protect these 
kids from traffickers and others who seek to victimize them.
    We investigated these protections as part of a thorough, 6-
month, bipartisan inquiry. The Subcommittee requested and 
reviewed thousands of pages of child placement case files, 
internal emails, and other documents from HHS. We interviewed 
several senior officials at HHS; we consulted with experts in 
child welfare and trafficking protections. That bipartisan 
staff report has been issued today, and it details the 
troubling findings from that inquiry.
    Our conclusion is that the Department of Health and Human 
Services' process for placing unaccompanied children suffers 
from serious, systemic failures. The horrible trafficking crime 
that occurred in Marion, Ohio, could likely have been prevented 
if HHS had adopted common-sense measures for screening 
sponsors, and checking in on the well-being of at-risk 
children--protections that are standard, by the way, in foster 
care systems run by all the States, including Ohio.
    And, unfortunately, the systemic defects that contributed 
to the Marion cases appear to have exposed unaccompanied minors 
to abuse in other cases reviewed by the Subcommittee.
    First, the victims of the Marion traffickers were placed 
with alleged family friends or distant relatives--which are 
known as ``Category 3'' sponsors. As it turned out, the 
sponsors were not really family friends at all. Two of them 
were basically sponsors for hire--strangers hired by human 
smugglers just to get the child out of HHS custody and then 
immediately pass them on to the traffickers. HHS did not know 
that, though, because it does not insist on any real 
verification of the supposed relationship between the sponsor 
and the child, apart from the say-so of a relative. One Marion 
case file actually contains no explanation at all of the 
child's relationship with the sponsor or his family. We learned 
that this kind of lax relationship verification is standard 
practice in Category 3 placements. A lost opportunity to 
protect these kids and others.
    Second, HHS missed obvious indications that the sponsors in 
the Marion cases were accumulating multiple unrelated 
children--a sign that should have triggered greater scrutiny 
for risk of trafficking. Our review of the Marion case files 
reveals an interconnected web of sponsors of multiple children 
sharing the same address. HHS failed to connect any of these 
dots.
    Third, remarkably, HHS did not visit a single sponsor's 
home to interview the sponsors and assess the proposed living 
conditions before placing them. We have learned that home 
studies are universally conducted in foster care placements--a 
close analogy to this situation--but HHS has done them in only 
about 4 percent of these unaccompanied children placements over 
the past 3 years. Only about 4 percent. This policy, of course, 
places thousands of children at risk every day.
    Fourth, HHS' procedures for what to do after a child is 
placed with a sponsor also failed. Only one victim of the 
Marion human-trafficking ring was the subject of any kind of 
post-release home visit to check on the child's well-being. 
But, shockingly, the adult sponsor was allowed to block the 
child welfare worker, on contract from HHS, from visiting that 
child, even after the caseworker discovered the child was not 
living at the home on file with HHS. As a result, the 
government missed another opportunity to uncover the crime 
being perpetrated. Incredibly, this was not a mishap. It is 
official HHS policy. HHS allows sponsors to refuse post-release 
services offered to a migrant child--even to bar contact 
between the child and an HHS Office of Refugee Resettlement 
(ORR) care provider attempting to provide those services. 
Basically, when a sponsor says no, the caseworker is instructed 
simply to write, ``Case closed.''
    Finally--and this is hard to believe--at the time of these 
cases, if a potential sponsor said on his application that he 
lived with three other adults, and that if anything happened to 
him, a backup sponsor could care for the child, which is 
sometimes required, HHS policy was not to conduct background 
checks of any kind on any of the sponsor's roommates or the 
backup caregiver listed on the form. None. Background checks 
were only run on the sponsor himself. And this is even more 
incredible to me: If that check turned up a criminal history, 
HHS policy was that no criminal conviction, no matter how 
serious, automatically disqualified a sponsor.
    On these points, however, I can report that in response to 
our 6-month investigation, just this week HHS strengthened its 
criminal background check policy effective January 25--as 
outlined in our report. This is progress. But I continue to be 
troubled by the fact that HHS told us that it is literally 
unable to figure out how many children it has placed with 
convicted felons, what crimes these individuals committed, or 
how that class of children are doing, how they are faring 
today.
    The bottom line is that this is unacceptable. HHS has 
placed children with non-relatives that have no verified 
relationship with the child, who receive no home visit or in-
person interview, whose household members have unknown 
backgrounds or criminal records, and who can freely cutoff 
social workers' access to the child. Worse, when senior HHS 
officials were alerted to trafficking risks due to the Marion 
cases and other evidence of children working in debt labor, 
they failed to adequately strengthen their policies--despite 
the fact that the Senate Appropriations Committee tells us that 
HHS has more than $350 million in unspent funds for this very 
program over the past 2 years. That is for this program, $350 
million in unspent funds.
    Perhaps the most troubling, unanswered question is this: 
How many other cases are there like the Marion trafficking 
case? The answer is HHS does not know. The Subcommittee has 
reviewed more than 30 cases involving serious indications of 
trafficking and abuse of unaccompanied children placed by HHS 
over the past 3 years. But human trafficking occurs on a black 
market, and other forms of abuse occur in the shadows. The 
Department maintains no regular means of tracking even known 
cases of trafficking or abuse, and it does little to monitor 
the status or well-being of the tens of thousands of children 
it has placed. There are, in the words of one leading care 
provider, untold numbers of effectively ``lost'' migrant 
children living in the United States.
    What I can say with confidence is that HHS' policies expose 
unaccompanied minors to an unreasonable risk of trafficking, 
debt bondage, and other forms of abuse at the hands of their 
sponsors. That must change. Today we will seek answers from the 
Administration and discuss a path forward toward what I know is 
our shared goal of strengthening this system to protect every 
child in America.
    Without objection, the joint staff report and the appendix 
to the report will be made part of the record.\1\
---------------------------------------------------------------------------
    \1\ The staff report referenced by Portman appears in the Appendix 
on page 101.
---------------------------------------------------------------------------
    With that, I will turn to our Ranking Member, Senator 
McCaskill, for her opening statement. And I want to thank 
Senator McCaskill for being a good partner on this 
investigation, for working very hard on this issue, and for her 
passion for these kids. Senator McCaskill.

             OPENING STATEMENT OF SENATOR McCASKILL

    Senator McCaskill. Thank you, Chairman Portman. I want to 
thank you for bringing the topic of this hearing and the 
Subcommittee's investigation to our top priority at this 
moment. It has been a cooperative and bipartisan investigation, 
and I appreciate as always the opportunity to work with you to 
bring these issues to light.
    If the Ohio cases that Senator Portman just described 
represented the total number of unaccompanied children 
exploited by their sponsors, we would be justified in holding 
this hearing. As the Subcommittee has discovered, however, the 
unaccompanied children who were trafficked in Marion are only a 
few of those who have fallen prey to trafficking or abuse by 
their sponsors.
    I find the situation in front of us today unacceptable, and 
I am disgusted and angry.
    HHS placed one 16-year-old with a sponsor who claimed to be 
her cousin. In fact, he was completely unrelated to her and had 
paid for her to come to the United States as a mail-order 
bride. The minor, who had endured a sexual assault in her home 
country, was forced to have sex with her sponsor. She appealed 
to a post-release services provider for help and was ultimately 
removed by Child Protective Services (CPS).
    In another case, a 17-year-old was released to an unrelated 
``family friend'' who reported living with three additional 
unrelated adult men. HHS released this teen to the sponsor 
without conducting background checks on any of the unrelated 
adult men with whom he would be living, without conducting a 
home study of his sponsor's home, and without providing any 
post-release services. Last June, this minor contacted HHS to 
let the agency know that his ``sponsor'' was actually the son 
of a labor recruiter, who had approached the teen in Guatemala 
about an opportunity to work in the United States. Upon being 
placed by HHS with the sponsor, the minor was forced to work 12 
hours a day in conditions that made him sick, literally sick. 
The teen ultimately ended up living in a home belonging to his 
employer, along with 14 other employees, before running away.
    Similar examples fill the case files reviewed by the 
Subcommittee, and keep in mind, we only reviewed a fraction of 
these files and found so many objectionable situations. We only 
looked at a fraction. Vulnerable and traumatized minors abused 
by their sponsors or forced to engage in backbreaking labor for 
little or no pay, while being housed in unsanitary and 
dangerous conditions.
    This is not just a failure of our moral obligation to 
protect the most vulnerable. It is a failure of a legal 
obligation as well. Under the 1997 Flores Agreement, the 
Trafficking Victims Protection Reauthorization Act (TVPRA), and 
other statutes, HHS has responsibility for ensuring that 
unaccompanied minors are released to sponsors capable of 
providing for their physical and emotional well-being. At a 
minimum, HHS must make an independent finding that the child's 
sponsor ``has not engaged in any activity that would indicate a 
potential risk to the child.'' For many children, HHS failed to 
fulfill this fundamental responsibility.
    The Subcommittee's investigation also revealed that HHS has 
failed to address systematic deficiencies in their placement 
processes, even after these deficiencies were highlighted by 
the Ohio case. In many cases reviewed by the Subcommittee, HHS 
failed to ensure that the relationship between a child and a 
proposed sponsor was even properly verified, failed to detect 
individuals who attempted to sponsor multiple children, failed 
to ensure sponsors had adequate income to support the child 
under their care, failed to conduct background checks on all 
the adults living in a sponsor's home, as Senator Portman 
mentioned, and failed to employ home studies and post-release 
services to detect red flags for abuse and trafficking.
    In addition, the Subcommittee found that HHS does not even 
maintain regularized, transparent guidelines governing the 
placement process and has not established specific policies and 
programs to protect unaccompanied minors from traffickers--
despite a clear mandate from Congress in 2008 to do so.
    Further, HHS has failed to fulfill its obligation to 
clarify its role in the UAC placement process with respect to 
the other various Federal agencies--and this is what really 
drives me crazy. HHS to this day is claiming once they put this 
child with a sponsor in Category 3, they have no more legal 
responsibility. Are you kidding me? And, by the way, the 
Department of Homeland Security (DHS) kind of says the same 
thing. Well, that is HHS because they are children. Somebody is 
going to step up as a result of this hearing and take full and 
complete responsibility of these minor children that we have in 
our country.
    Nothing breaks my heart more than the notion that these 
parents and their children facing unspeakable problems in their 
home countries took a risk that every parent in this room 
cannot even imagine taking. They said, ``Yes, take my child. I 
want this child out of this country because I love this child 
so much.'' And they believed America was someplace that they 
would be safe and maybe have a future. And we have two Federal 
agencies that have abdicated their responsibility for the 
welfare of these children.
    Now, much of it was to try to get them out of detention. 
And, by the way, everybody needs to understand there are 
categories, and if it is a relative or someone that is easily 
verified as a relative, that is Category 1 and 2. But keep in 
mind, if somebody cannot prove Category 1 or 2, they put them 
all in Category 3 when you did not have to prove anything. They 
reduced the time of home studies from 30 days to 10 days for 
one reason: Get them out of detention. Understand, these 
children, as we will hear today in this hearing, are in 
caregiving facilities where they are visiting museums and they 
are playing soccer and they are getting three meals a day. What 
is wrong with keeping these children in detention longer in 
order to make sure that we are not placing them with someone 
who is going to illegally use them as child labor or in sex 
trafficking. The priorities here are all out of whack.
    I am not going to finish my formal prepared statement. I 
will enter it into the record,\1\ because, frankly, I think it 
is important that all of us today quit thinking about what is 
on paper and think about these children and how hopelessly lost 
they are when someone shows up knowing that nothing is going to 
happen and says, ``Yes, I will sponsor that child,'' and then 
they stick them in a trailer and have them clean chicken coops 
12 hours a day, 7 days a week, for no money.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 57.
---------------------------------------------------------------------------
    We can do better in the United States of America. And I 
know there are not people at HHS or DHS that wanted this 
outcome. But because no one stepped up and took responsibility, 
that is the outcome we are dealing with. And we have to get it 
fixed, and we have to get it fixed now.
    Thank you, Mr. Chairman.
    Senator Portman. Thank you, Senator McCaskill. Thank you 
for your work and your staff's work on putting together a 
comprehensive report that I encourage everyone to read and for 
your passion for this issue.
    We are now joined by the Chairman and Ranking Member of the 
full Committee. I appreciate them being here. I would like to 
offer them the opportunity to make some brief comments before 
we go to the witnesses.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Thank you, Mr. Chairman. I want to 
commend you and the Ranking Member on instigating this 
investigation and this oversight. I share your outrage. This is 
shameful what has happened.
    I think you all know I am kind of big into facts and 
figures and root causes, and, Mr. Chairman, you asked how this 
happened. And, again, your investigation shows the detail of 
what went wrong within the agencies.
    I guess I want to in my opening comments here kind of pull 
back and talk about the larger cause or causes of these 
tragedies, really.
    I would first say that the first proximate cause of this is 
how we have been handling the crisis of unaccompanied children. 
What has happened is we have become more--it is being swept 
under the rug. Remember when this was a big issue a couple of 
years ago? And, by the way, we have the chart\2\ up here, in 
2014, here we hit over 50,000 unaccompanied children coming in 
from Central America.
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Johnson appears in the Appendix 
on page 416.
---------------------------------------------------------------------------
    But what has happened in that intervening time period and 
why it is not in the news so much anymore is we have gotten 
more efficient at apprehending, processing, and dispersing. 
And, unfortunately, we are processing and we are dispersing 
children into these horrific circumstances. So there is one 
proximate cause, our efficiency in sweeping this crisis under 
the rug because we are also sweeping the crisis under the rug 
because we do not want to really recognize what I think is the 
root causes of this surge.
    Now, I realize there are legitimate differences of opinion 
in terms of what is the proximate cause of that surge. But just 
take a look at that graph. In 2009, 3,300 unaccompanied 
children; 2010, 4,400; 2011, 3,900. And then in 2012, President 
Obama issued his Executive memorandum, Deferred Action on 
Childhood Arrivals (DACA), which, regardless of what the 
memorandum actually says, sent a very strong signal to children 
and families in Central America that if you get into America, 
you are going to be able to stay. And the reality is, again, 
regardless of what the memorandum says, if they get into 
America, they are able to stay. They are processed, they are 
dispersed into some of these horrific circumstances.
    Take a look at the figures. The 28,000 that came in 2015, 
3.6 have been returned. Of the 51,000 in 2014, 2.6 have been 
returned. So these children and these families, they use social 
media. They communicate with people back in Central America. 
The reality is they know if they get into America, they are 
able to stay.
    So, again, I guess we kind of all breathed a sigh of relief 
in 2015 that there were only 28,000 unaccompanied children. A 
lot of families are coming in here as well. But, again, 28,000 
versus a few thousand in 2009, 2010, and 2011.
    Now, let us put up the next chart,\1\ because this is what 
we have to be concerned about.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 417.
---------------------------------------------------------------------------
    Again, the numbers actually came down in 2015. Look at 
where we are in just the first quarter of 2016. 2014, the 
massive surge, the crisis level, we had, again, a total of 
51,705 in that entire fiscal year (FY). But in the first 
quarter there were about 8,600. We are already up to 14,000 in 
the first quarter of 2016. Why isn't this big news?
    Again, it is because we have become more efficient at 
apprehending, processing, and dispersing, and we see the 
horrific results of that efficiency.
    So, again, we have to recognize what our policies are 
doing. We took a trip down to Central America and visited 
Guatemala and Honduras with Senator Heitkamp, Senator Carper, 
and Senator Peters. In meeting with the President of Honduras, 
one of his requests of our delegation was, ``Would you please 
look at your laws and end the ambiguity in your laws that 
actually incentivize our children, their future, from leaving 
their countries and coming to America?'' And, again, the 
tragedy is they come into some of these circumstances because, 
let me repeat it one more time, we have become efficient at 
processing and dispersing and sweeping this under the rug. We 
have to end that sweeping under the rug process, recognize 
reality, and change our laws.
    Thank you, Mr. Chairman.
    Senator Portman. Thank you, Chairman Johnson.
    Ranking Member Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks so much. My thanks to you and to 
Senator McCaskill for holding this hearing and to our witnesses 
for being here.
    There have been news accounts of late that certainly caught 
my eye and probably the eyes of some of you as well. The report 
said that the number of folks who are here illegally has 
actually begun to drop, which almost seems counterintuitive 
when you think about, as we are mindful of the flow of 
immigrants from Honduras, Guatemala, and El Salvador; we are 
mindful of the President's proposal to bring in last year 2,000 
Syrian refugees, this year 10,000 refugees. And yet that number 
of illegal immigrants in this country appears to be dropping. 
At first I did not believe it, but now I am convinced it is 
true.
    The question one might ask is: Well, why? Why is that 
happening? And as it turns out, if you add together the 
countries of Honduras, Guatemala, and El Salvador, compare them 
to Mexico, my recollection is that the combination of those 
three countries that make up the Northern Triangle may add up 
to 25 million people.
    Let me see. What is the population of Mexico? Do you know. 
Does anybody know? I think it is under 200 million. That is a 
lot of people.
    Senator McCaskill. Ten million just in Mexico City.
    Senator Carper. It is probably close to 200 million. So 
roughly eight times more people live in Mexico than in these 
three countries combined, and there are more people going back 
into Mexico than there are Mexicans now coming into the United 
States. And that is why the net flow is actually dropping, and 
the number of citizens here is actually dropping.
    Two weeks ago today, I was in Guatemala with the Vice 
President and Secretary Jeh Johnson. We met with the Presidents 
of those three countries to talk about their Alliance for 
Prosperity--it is their version of Plan Colombia--which they 
have committed to implement to focus on governance, fixing 
governing institutions, to focus on security, corruption, lack 
of rule of law, impunity, and the last one is just to focus on 
economic development, how to create a more nurturing 
environment for job creation and job preservation, which 
depends a lot on, frankly, winning the war against corruption 
and criminal behavior. That is their game plan. They developed 
that.
    What we have done in sort of a counter-response is almost 
like Home Depot: You can do it, we can help. All right? They 
can do this stuff. It is laid out in their Alliance for 
Prosperity. And what we need to do is a number of things that 
are actually funded in the omnibus bill that we passed last 
year, about $750 million to support--not to give money to these 
countries, but the taxpayer dollars from these countries, that 
$750 million is not going to go to Honduras, Guatemala, and El 
Salvador's Governments. They will go to other entities. It will 
actually focus on corruption, rule of law, courts, prosecutors, 
prisons, and focus on economic development and so forth. I 
think it is a smart approach.
    So as we focus here on a terrible situation which violates 
for me the Golden Rule, which violates for me Matthew 25, the 
least of these, obviously we have to be concerned and care a 
hell of a lot about what is going on that is shameful. But at 
the same time, we have to be able to walk and chew gum at the 
same time, and part of what needs to go on is we need to help 
these countries, these three countries, which make up about 
one-eighth the population of Mexico, get their act together and 
turn themselves around as Colombia has. They can do it, and we 
can help.
    Thank you very much, Mr. Chairman. Thank you, Claire.
    Senator Portman. Thank you, Senator Carper.
    I would now like to call our first panel. Mark Greenberg, 
who is here with us this morning, is the Acting Assistant 
Secretary for Administration for Children and Families (ACF), 
which is part of the Department of Health and Human Services. 
He was previously Deputy Assistant Secretary for Policy at the 
Administration for Children and Families. Before joining HHS, 
Mr. Greenberg was the Director of the Georgetown University 
Center on Poverty, Inequality, and Public Policy and was a 
senior fellow at the Center for American Progress.
    Bob Carey is also with us this morning. He is the Director 
of the Office of Refugee Resettlement at the Department of 
Health and Human Services. He previously served as vice 
president of resettlement and migration policy at the 
International Rescue Committee.
    I appreciate both of you for being here this morning, and I 
look forward to your testimony. It is the custom of this 
subcommittee, as you know, to swear in all of our witnesses. At 
this time I would ask you both to stand, please, and raise your 
right hands.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Greenberg. I do.
    Mr. Carey. I do.
    Senator Portman. Thank you. Let the record reflect that the 
witnesses answered in the affirmative.
    Gentlemen, all of your written testimony will become part 
of the record in its entirety. We would ask you to try to limit 
your oral testimony to 5 minutes.
    Mr. Greenberg, I would like you to go first.

  TESTIMONY OF MARK GREENBERG,\1\ ACTING ASSISTANT SECRETARY, 
 ADMINISTRATION FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT OF 
    HEALTH AND HUMAN SERVICES; ACCOMPANIED BY ROBERT CAREY, 
 DIRECTOR, OFFICE OF REFUGEE RESETTLEMENT, U.S. DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

    Mr. Greenberg. Chairman Portman, Ranking Member McCaskill, 
and Members of the Subcommittee, thank you for inviting us to 
testify today. I am Mark Greenberg. I am the Acting Assistant 
Secretary at the Administration for Children and Families, and 
with me is Bob Carey, the Director of the Office of Refugee 
Resettlement.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Greenberg appears in the Appendix 
on page 61.
---------------------------------------------------------------------------
    One of ORR's principal goals is to ensure that all 
unaccompanied children are released to sponsors who can care 
for their physical and mental well-being. The number of 
children that have been referred to ORR's care over the last 
number of years has grown significantly, and HHS has worked 
hard to adapt to this rapid increase in the size of the 
program, bringing on additional staff, expanding the network of 
providers, and adjusting a number of policies to respond to the 
unexpected fluctuations in migration, the needs of the 
children, and the challenges of managing a program that grew 
nearly tenfold over a 3-year period.
    I want to be clear that we view the Marion, Ohio, labor 
trafficking case as a deeply dismaying event. Child safety is a 
priority for us. We are committed to continuing to make 
revisions to strengthen our policies, to learn all that we can 
from this and our ongoing experiences in operating the program.
    As I explained in my written testimony, I cannot discuss 
the specific details of the children in the Ohio case due to 
the ongoing criminal investigation, but we will continue to 
assist the Subcommittee in its work.
    In the next few minutes, I do want to talk briefly about 
ORR's process for placing unaccompanied children with suitable 
sponsors and then describe a number of steps that ORR has taken 
over the last year to strengthen our policies relating to the 
safety and well-being of children.
    Unaccompanied children are referred to ORR by other Federal 
agencies, usually the Department of Homeland Security. They are 
generally cared for when they arrive in one of a network of 
ORR-funded shelters while staff works to determine if there is 
an appropriate sponsor a child can live with while awaiting 
immigration proceedings.
    Under the governing law, HHS releases children in our care 
to parents, guardians, relatives, or other qualified adults. 
Most children are placed with a parent. Most of those who are 
not placed with a parent are placed with other relatives. We 
only turn to family friends if there is no suitable parent or 
relative. In all cases, when we make placements, we seek to 
balance the importance of timely release with safeguards which 
are designed to maximize safety.
    ORR is continually working to strengthen its policies and 
procedures and in the last year took a number of steps to do 
so. Let me quickly highlight five changes that did occur.
    First, for a number of years, ORR has operated a help line 
that had mainly been used by parents seeking to find out if a 
child was in ORR custody or for sponsors that had questions 
with legal proceedings. Last May, ORR expanded that help line 
so that it is available to children calling with safety-related 
concerns as well as to sponsors calling with family problems or 
child behavior issues or needing help connecting to community 
resources.
    Second, the Trafficking Victims Protection Reauthorization 
Act, requires a home study before a child is released in four 
situations: when a child has been a victim of a severe form of 
trafficking, a special needs child with a disability, a child 
who has been a victim of physical or sexual abuse, or a child 
whose proposed sponsors presents a risk of abuse, maltreatment, 
exploitation, or trafficking. In July, ORR broadened the 
circumstances where home studies would be used to include all 
children age 12 and under being released to non-relatives or 
distantly related relatives. Later in July, ORR further 
expanded that requirement to apply in all cases where a non-
relative has previously sponsored a child or proposes to 
sponsor more than one child to whom the sponsor is not related.
    Third, under the TVPRA, ORR must offer followup services or 
post-release services in cases where there has been a home 
study and may offer such services for children with mental 
health or other needs that could benefit from ongoing 
assistance from a social welfare agency. In July, ORR began a 
pilot project to provide post-release services to all children 
released to a non-relative or a distant relative sponsor as 
well as to children whose placement has been disrupted or is at 
risk of disruption and is within 180 days of release and they 
have contacted the help line.
    Fourth, in August last year, ORR started conducting check-
in phone calls with sponsors and the unaccompanied child in 
their care 30 days after the child's release. The calls are 
intended to identify any issues concerning child safety and 
provide sponsors with resource assistance. If the provider 
believes that the child is unsafe, the care provider must 
report this to local child protection agencies and/or local law 
enforcement.
    Fifth, ORR's longstanding policy had been to conduct 
background checks on other individuals living with a potential 
sponsor when a home study is conducted, and earlier this month, 
ORR enhanced its background check policy so that household 
members as well as backup care providers identified in a 
sponsor safety plan are subject to background checks in all 
cases.
    I have highlighted five areas where we have made 
significant changes. We discuss additional ones in the written 
testimony. I want to emphasize that this is part of an ongoing 
process for us of continuing to review our policies to 
strengthen our safeguards as the program has expanded.
    We appreciate the work that the Subcommittee has done. We 
look forward to continuing to work with the Subcommittee to 
strengthen the program, and we will be happy to answer any 
questions.
    Thank you.
    Senator Portman. Thank you, Mr. Greenberg. Mr. Carey.
    Mr. Carey. Mr. Chairman, I do not have written testimony, 
but I am happy to answer any questions.
    Senator Portman. You do not wish to make a statement?
    Mr. Carey. No, I do not have a prepared statement.
    Senator Portman. OK. Let us start where we finished with 
our own opening statements, and we look forward to hearing from 
you, Mr. Carey, in response to our questions at least.
    Senator McCaskill and I started this investigation because 
of these public reports that HHS has placed a number of these 
unaccompanied children into the hands of human traffickers, 
specifically this case in Marion, Ohio. When we learned the 
details of those cases, we were shocked by the fact that HHS 
had approved these placements, they had done so without really 
verifying the sponsors were who they said they were, without 
noticing the applicants were trying to accumulate multiple 
children, without even questioning, for instance, whether one 
sponsor had adequate financial means who reported on your form 
that this person was making $200 a week in income, without ever 
laying eyes on any of the homes that children would live in.
    Here is one of those homes. This is a trailer you see 
behind Senator Lankford in Marion, Ohio, we talked about 
earlier. There were multiple children in that one trailer.
    Worse, when a child welfare worker discovered that one 
child did not really live where he was supposed to live, the 
sponsor refused to allow any followup services, just said, 
``No, you cannot even check on this child.'' And HHS policy was 
to say, Fine, you can block these child welfare workers who are 
on contract with HHS. Close the case. Do not do anything. That 
was policy.
    I have to tell you that when I heard those details for the 
first time, I thought it sounds like everything that could go 
wrong did go wrong. But, Mr. Carey, your Deputy Director in 
charge of the unaccompanied children program told our lawyers 
that, one, she was unaware of any failure to follow HHS policy 
in the Marion cases; and, two, that she was unaware of any 
alternative practices that would have led to a different 
outcome.
    So I guess what I want to ask you both this morning--and I 
want an answer yes or no--is whether you agree with those 
conclusions from your Deputy.
    So, first, do each of you believe that HHS policy was 
followed in the Marion cases? Yes or no, please. Do you agree 
that HHS policy was followed in the Marion cases?
    Mr. Greenberg. I have been advised by staff that it was 
followed, the policy that was in effect at the time. I do want 
to emphasize, as you heard in my remarks and per my testimony, 
that we have made a number of----
    Senator Portman. So your answer is HHS policies were 
followed.
    Mr. Carey, what is your answer?
    Mr. Carey. I was not at ORR at the time, but I was informed 
that policies that were in place at the time were followed for 
these cases.
    Senator Portman. So this was based on policy, these 
horrible situations we have talked about. It is HHS policy that 
if a child turns out not to live where the sponsor says they 
will and a caregiver offering post-release services wants to 
contact the child and make sure he is OK, the sponsor can 
refuse those services and block access to actual child. Does 
that offend you? It just does not seem like common sense.
    I would ask, does anybody in the room think that that is 
offensive? Raise your hand if you think that is wrong, that you 
cannot even check on a child.
    [Hands raised.]
    Mr. Greenberg. Senator Portman, I do want to be clear that 
we are following the law that Congress enacted. Our reading of 
the law is that we do not have the authority to make these 
visits mandatory.
    Senator Portman. Congress enacted a specific law to avoid 
these kind of cases. In fact, you just talked about it, and you 
said that if a kid is at risk of trafficking, you have to 
provide these additional services, and you did not do it. So 
that is just not accurate.
    Let me ask you the second question. Do each of you agree 
with your Deputy that there are not any alternative practices 
that would have led to a different outcome? Yes or no.
    Mr. Greenberg. Senator Portman, I cannot speculate----
    Senator Portman. Just yes or no.
    Mr. Greenberg [continuing]. For an individual case as to 
whether that would have been the circumstances----
    Senator Portman. But, Mr. Greenberg----
    Mr. Greenberg. I cannot talk about----
    Senator Portman [continuing]. You are a guy who has concern 
for these kids. You have a history of working in this area. You 
do not think that there could have been a better outcome with 
alternative practices?
    Mr. Greenberg. What I can emphasize is that we are 
continually looking at how to strengthen our practices. As I 
have described, we have taken a number of steps over this last 
year to do so. I cannot for any specific case say if this 
practice had been in place, it would have made a difference. We 
absolutely want to ensure that we have the needed policies and 
practices in place, and we welcome the Committee's 
recommendations to us for additional ones that we should 
consider.
    Senator Portman. Mr. Carey, do you agree with your Deputy 
that there are not any alternative practices that would have 
led to a different out?
    Mr. Carey. We are deeply concerned about the well-being of 
all of the children in the care of ORR and do the utmost in our 
power----
    Senator Portman. But let me ask you if you can answer the 
question yes or no, please. You are under oath. We have asked 
you to come here to testify. You did not do an opening 
statement. At least answer the question.
    Mr. Carey. The procedures in place at the time were 
followed. There are additional procedures that have been in 
place since that time. I would be reluctant to speculate what 
an impact on an ongoing criminally----
    Senator Portman. The Deputy says she is unaware of any 
alternative practices that would have led to a different 
outcome. Do you agree with that, yes or no?
    Mr. Carey. I would be reluctant to speculate about what 
might happen in a case that is part of an ongoing 
investigation.
    Senator Portman. Wow. Mr. Greenberg, I want to ask you 
about a particular policy you have heard a lot about, the 
Department's policy about home studies. As I think one of the 
other witnesses here today will tell us, State foster care 
systems, which are a pretty close analogy to what you do, never 
put a child in a temporary home without laying eyes on the 
living environment. HHS performed in-home reviews in only about 
4 percent of the cases over the last 3 years. That is 
information you gave us, 4 percent.
    If you would turn to page 212 of the Appendix of the staff 
report, you will see an email exchange. This is the appendix to 
the report, page 212. Do you recognize this email exchange, 
page 212?
    Mr. Carey. The report has not been shared with us, Senator.
    Senator Portman. We gave you copies of this email. Let us 
provide additional copies of the email. Clerk, could you please 
provide those?
    Mr. Greenberg. Yes, and I am reviewing the email now, 
Senator.
    Senator Portman. OK. You have the email. OK, good.
    [Pause.]
    My question to you is: Do you recognize this email chain? 
It is with you. Do you recognize it? Just yes or no.
    Mr. Greenberg. Yes, it certainly appears to be our email.
    Senator Portman. OK. Let me put this in context. Last 
summer, ORR was considering expanding home studies--in other 
words, to actually go and look at these places like this 
trailer--and decided to require them when a child under age 13 
is placed with a non-relative. When that proposal came to you 
as head of the Administration for Children and Families, you 
wrote an email to ORR leadership raising concerns about it. 
Here is what you wrote: ``I assume the reason for under 13 is 
that it is a smaller number for a pilot and that we will have 
the greatest concern about young children less able to 
communicate about their need for help. Right? But this is 
probably less likely to pick up the debt labor group.'' That is 
what we are talking about here this morning, the debt labor 
group, these kids who were forced to work to pay off this debt. 
``Do you think it would just go too far to extend to all 
children going to non-relatives?'' A sensible question.
    So, Mr. Greenberg, I assume you meant here that kids 13 and 
older are more likely to be expected to work and, therefore, 
more likely to be forced to work off debt to coyotes and to 
traffickers. Is that right?
    Mr. Greenberg. Yes, it is, Senator.
    Senator Portman. And here you are saying that ORR's policy 
change is not likely to help kids most vulnerable to labor 
trafficking. Is that right?
    Mr. Greenberg. It is on that specific policy.
    Senator Portman. OK.
    Mr. Greenberg. I have noted a number of additional 
policies.
    Senator Portman. You are onto something, common sense. So 
in light of the trafficking risk you identified, you sensibly 
asked ORR, ``Shouldn't we be performing home studies on all 
non-relatives? '' This is on page 211 of the appendix. In 
response, ORR Deputy Director in charge of the unaccompanied 
minors program wrote back to say this: ``You are correct about 
why we chose the younger children and risks associated with the 
older children not being included.''
    In other words, she said, yes, you are right, we are 
leaving out those kids who are most vulnerable to this debt 
bondage. That is exactly what happened. HHS approved the policy 
change without expanding home study to kids older than 13, 
despite you all knowing what you were doing for these kids who 
were in the kind of situation we are talking about here today 
in Marion, Ohio.
    So my question to you is very simple: Do you think home 
studies might have prevented the tragedy in Marion? If you had 
gone and seen multiple kids living in a trailer like this, do 
you think there would have been a different result?
    Mr. Greenberg. Senator, as I indicated----
    Senator Portman. Yes or no.
    Mr. Greenberg. I simply cannot speculate as to whether a 
particular policy would have resulted in a different result. 
What I can say and what you can see in my email is that we were 
exploring circumstances under which we could expand the use of 
home studies. I expressly raised to staff the question as to 
whether we should be doing home studies for all cases involving 
non-relatives----
    Senator Portman. And your staff apparently disregarded 
that, and they did not follow that policy. And I guess, if you 
cannot say this would have prevented the tragedy in Marion, 
then I think that just defies common sense. Remember, much of 
these sponsors were sponsors for hire by traffickers. And a 
bunch of unscrupulous people were trying to accumulate multiple 
children. That was obvious from any review. You did not even 
have to have a home visit to see that. If you had looked at the 
files, the same address appeared on multiple applications. One 
of the sponsors appeared on another sponsor's applications 
under an alias. I just cannot believe you would not think that 
home visits would have revealed what was going on. It just 
defies common sense.
    Mr. Greenberg. Senator----
    Senator Portman. I have gone over my time. I am now going 
to ask my Ranking Member, Senator McCaskill, if she has 
questions for the panel.
    Senator McCaskill. OK. Just briefly, before I get into my 
questioning, I want to say that DACA was not ambiguous. 
Children here 2007 or earlier. This hearing is not about DACA. 
This hearing is about those children who appeared at our 
border, who came into our country, and, frankly, no matter how 
you feel about the border, no matter how unrealistic your ideas 
might be about Mexico building us a wall, no matter how you 
feel about immigration, the bottom line is when a child is 
admitted into our country, the United States of America should 
be an example to the world about how we care for those 
children. Maybe they end up not staying here forever. Maybe 
they end up being deported eventually for some reason or other. 
But while they are here, we have an obligation that is in the 
foundation of what our country is to protect them.
    Now, in 2008, Congress directed several Federal agencies, 
including HHS--and you are a Harvard-educated lawyer, Mr. 
Greenberg, so I know you have read this law. It says very 
clearly, ``These Federal agencies''--Congress says this in the 
law--``must establish policies and programs to ensure that 
unaccompanied alien children in the United States are being 
protected from traffickers.'' It is black-letter law, Mr. 
Greenberg.
    My question for you: Have you established that policy or 
program specifically in response to this mandate from Congress 
in 2008? Yes or no.
    Mr. Greenberg. We have established a set of policies and 
practices which are responsive to that mandate from Congress 
and that are intended to address the protection and the safety 
of children.
    Senator McCaskill. Well, Mr. Greenberg, first of all, does 
Mr. Carey work for you? Mr. Carey, do you report to Mr. 
Greenberg?
    Mr. Carey. Yes, I do.
    Senator McCaskill. You do. So he is under you in terms of 
the organizational chart?
    Mr. Greenberg. That is correct.
    Senator McCaskill. I was under the impression he was under 
the other Assistant Secretary who has not been confirmed.
    Mr. Carey. No. I report to Mr. Greenberg.
    Senator McCaskill. OK. Well, that was not clear, by the 
way, and this is from staff that has been poring through your 
records and your org charts. So now we know. Can you fire Mr. 
Carey?
    I am not asking if you are going to. I am asking if you 
can.
    Mr. Greenberg. I, frankly, do not know. I would need to 
talk with colleagues at the Department, and I certainly have no 
reason that I would wish to.
    Senator McCaskill. Well, I do not want to disagree with 
you, but I have to say on the record that you have not 
established a direct policy or program in relationship to that. 
You have had drafts for years. How many years have there been 
drafts going around? You all have not been there that long, but 
you have to know, right? There has not been a draft--or there 
has not ever been a regulation posted for even commenting on 
this subject, has there, Mr. Greenberg?
    Mr. Greenberg. Senator McCaskill, I hope that you would 
both recognize the number of changes and improvements we have 
made in the last year----
    Senator McCaskill. You made a great improvement 3 days ago. 
I am not sure it would have happened if it was not for this 
hearing, but you did. I mean, no question, in the last 6 months 
you guys have gotten busy. My question is: What has been going 
on since 2008? And why would you sit here and say the law does 
not give you any ability to protect these children when we 
specifically in the law in 2008 mandated that you do so?
    Mr. Greenberg. Senator McCaskill, I want to be clear that 
our efforts to improve safety and do more to address well-being 
for the children in the program began well before July. When I 
testified before this Committee last July, I described a number 
of these efforts at that time. It has been an ongoing process. 
It will continue to be. We look forward to reviewing the 
Committee's report and the Committee's recommendations for what 
else we can be doing to strengthen our efforts.
    Senator McCaskill. Well, let me ask you a hypothetical. 
And, Mr. Carey, I would appreciate it if you would weigh in on 
this hypothetical.
    A 15-year-old Guatemalan girl is released to ``a family 
friend'' as a sponsor under Category 3. She does not show up 
for her hearing. What happens? Mr. Carey.
    Mr. Carey. I cannot speak to the specifics of a case with 
which I am not familiar.
    Senator McCaskill. This is a hypothetical case, Mr. Carey. 
This is not a real case. You can speak to the specifics of 
this. You are not going to be able to avoid every question 
here. Let us try again.
    Mr. Carey. Nor do I----
    Senator McCaskill. Let us try again.
    Mr. Carey [continuing]. Intend to, Senator.
    Senator McCaskill. A hypothetical. A 15-year-old Guatemalan 
girl is given to a Category 3 sponsor, ``family friend,'' does 
not show up for her hearing. What happens? What responsibility 
do you have?
    Mr. Carey. ORR's responsibility does not extend to the 
legal representation or the legal presence at a hearing.
    Senator McCaskill. Would it make you think, since Congress 
said in 2008 you guys are supposed to be having policies and 
program to protect these kids, would common sense tell you that 
maybe if this child did not show up for the hearing, their 
sponsor is maybe not being responsible?
    Mr. Carey. Senator, our responsibilities with regard to 
anti-trafficking are put in force from the day a child arrives 
into our care. They are screened for trafficking. They meet 
with clinicians in individual and group settings many times 
over the course of their stay. Additional information is sought 
from every source available.
    Senator McCaskill. So the answer is no, you have no 
responsibility, you do nothing if she does not show up for a 
hearing. You are trying to say all these things happen ahead of 
time. I am asking you what happens when she does not show up 
for her hearing. Does anybody call the sponsor? Does anybody 
decide that is time for a home visit? Does that occur? Mr. 
Greenberg.
    Mr. Greenberg. So in a hypothetical situation, if there are 
post-release services being provided, then there would be 
ongoing followup with the child----
    Senator McCaskill. I am asking specifically if the fact--we 
know that the majority of children who show up for their 
hearings are allowed to stay in this country. We know that a 
much higher percentage of children are not showing up for these 
hearings if they are in Category 3. We know that. You know 
that, right? If you do not know that and I know that, we are 
really in trouble. You know that, right? Mr. Carey, you know 
that, right?
    Mr. Carey. We have limited information on the number of 
children----
    Senator McCaskill. No, you have to be kidding me. You are 
telling me you do not know that? You have limited information? 
All you have to do is pick up the phone and ask somebody. That 
is what we did.
    Mr. Greenberg, are you aware that Category 3 do not show up 
for their hearings as often?
    Mr. Greenberg. I have not seen information to that effect.
    Senator McCaskill. OK. Well, I could go on for way too 
long, and I do not mean to be so hard on the two of you. You 
have good hearts, I am sure. But you have to step back from 
this. You have to step back from this and look. What everybody 
is doing is doing this, out the door, we are done. And you know 
what? The Department of Homeland Security says, they say, 
``When it is children, it is HHS.'' And you guys say, ``Well, 
we put them with a sponsor. It is not us.'' So no one is using 
the failure to show at a hearing as a moment of realization 
that somebody is watching this child that is not being 
responsible for their welfare. And you know what happens when 
that child is finally picked up? They get deported no matter 
what. So, of course, they are not going to come up later 
because chances are if it is a bad-guy sponsor, he is worried 
about a whole lot of other potential consequences in his life.
    So it is just when I read all of this information, I mean, 
I would expect you guys to read this stuff and have it all 
memorized before this hearing, what we have learned from you. 
And the fact that you are not aware that the chances of a 
Category 3 sponsor showing up is much diminished from other 
kinds of sponsors and that that should be a warning sign--and I 
want to know this: When, in fact--and I know neither one of you 
will answer this question, but I want it on the record. Here is 
the bottom line: She does not show up for a hearing. There has 
not been a blanket of home visits. Or the sponsor says, ``We do 
not want you anymore to look at us, we do not have to look at 
you anymore.'' And she ends up being trafficked on Backpage, 
another investigation we are doing, for sex. Whose fault is 
that? And if you guys think it is not your fault, if you think 
you bear no responsibility for that, I think you are wrong. I 
think you are flat wrong. And I would like to see a turn here 
at this hearing and all of a sudden say, ``We should take 
responsibility,'' because somebody is going to take 
responsibility. If you need black-letter law, I can guarantee 
we can get it. But I think the black-letter law is pretty 
clear. I did not go to Harvard. I went to one of those public 
schools. I went to the University of Missouri. And I will tell 
you, when I read that law, I do not think I would have the 
nerve to say that Congress has not given us the authority to 
watch these kids.
    Thank you.
    Mr. Greenberg. Senator McCaskill, may I respond, please?
    Senator McCaskill. Yes, you may.
    Mr. Greenberg. Senator, as I have emphasized throughout, 
our overall concern is absolutely with the safety and well-
being of the children. We are implementing a law that Congress 
has enacted. It is a law that simply did not envision that 
there were going to be home studies in every case. It did not 
envision that there were going to be post-release services in 
every case. Congress can choose to change the law to make it be 
that way----
    Senator McCaskill. Wait a minute, wait a minute, wait a 
minute.
    Mr. Greenberg. If I could----
    Senator McCaskill. Wait a minute. Establish policies and 
programs to ensure that unaccompanied alien children in the 
United States are protected from traffickers. What in the law 
is keeping you from establishing right now, putting up today--
by the way, your program manual, we cannot even see it, what 
you are supposed to do. It is not even available to the public. 
But why don't you put up on the website today that you are 
going to have home visits every case when someone does not show 
up for a hearing? What keeps you from doing that as part of 
this policy and program? Why can't you go back today and do 
that?
    Mr. Greenberg. Senator McCaskill, I will be happy to go 
back and talk with our lawyers as to whether they believe we 
have----
    Senator McCaskill. Well, I would love to talk to your 
lawyers.
    Mr. Greenberg [continuing]. The authority to do it.
    Senator McCaskill. You are a lawyer. You know better. You 
know you can do that under this law.
    Mr. Greenberg. Senator McCaskill, I have had multiple 
conversations about trying to identify what our authority is 
and what else we can be doing. What we are talking about today 
is our understanding of our authority under the law. If the 
Committee or other Members of Congress want to work to change 
the law or to clarify our authority----
    Senator McCaskill. Well, I need your lawyers to get me in 
writing, and I would like it within a week, what it is in the 
law that prevents you from doing a home visit when a Category 3 
unaccompanied minor does not show up for their hearing. What 
keeps you from doing a home visit? I want to know in the law 
what keeps you from doing that.
    Mr. Greenberg. We will followup and ask that question to 
our lawyers.
    Senator Portman. Thanks, Senator McCaskill. Of course, it 
is much worse than that because you have kids who actually told 
you, told HHS, that this sponsor was not a family friend; it 
was someone to ``get me out of HHS custody.'' We have that 
information now from you all. We even have a situation where 
somebody said, ``As soon as I got to the airport, HHS bought my 
plane ticket, the so-called sponsor took off and put me in the 
hands of other people.'' They have told you that.
    So the situation Senator McCaskill talks about, of course, 
but it is even plainer than that. And, obviously, you have a 
responsibility here. I mean, you are not going to be able to 
say that there is not adequate legal basis for you to keep 
these kids out of the hands of traffickers when it is so 
obvious, when there was no check done.
    So, I must say I am very discouraged by what I am hearing 
today because you continue to try to evade responsibility when 
it is so obvious. Senator Heitkamp.
    Senator Heitkamp. I just sit here and I wonder how we can 
possibly be having this conversation. How can we possibly not 
take in all seriousness the tragic situation of these children 
who are fleeing conditions that are unimaginable to us, coming 
to this country, believing this country has the ability to 
somehow protect them, but yet we sit here, important as what we 
are, Senators and high-ranking officials, saying we do not have 
the ability to protect kids, there is no law?
    Mr. Greenberg, when you looked at this gap in so-called 
authority, which I agree with Senator McCaskill does not exist, 
but when you believed it existed, did you say, ``My goodness, 
we do not have the ability to do background checks, we do not 
have the ability to do home visits on a sponsor, we need to go 
to Congress and get an emergency bill passed to protect 
children''? Did anyone in the administration have that 
conversation?
    Mr. Greenberg. Senator Heitkamp, what I can say is that we 
have had very active conversation----
    Senator Heitkamp. Do you understand why we are angry? 
Because every time we ask you a question, you got, ``How am I 
going to answer that?'' Answer it by telling us what 
conversations you had? This was your obligation to protect 
these children. What conversations did you have, beyond what we 
see here in these emails, that would suggest to us that you put 
the safety and well-being of these children, in a bill that was 
passed to prevent trafficking, you put the safety and well-
being of these children first? What conversation did you have 
when you saw this obstacle that you have been telling Senator 
McCaskill that exists in the law to change the law so that you 
would actually have access? Because I can tell you, as a former 
State official, if the State ran a foster care program under 
IV-E like this, without home visits, they would not be getting 
IV-E dollars very long. There is no State agency that runs a 
foster care program like this.
    I think we can completely appreciate the extent to which 
DHS was overrun. But going back again to Senator McCaskill's 
point, this was 2008. This was not the big surge. This is a 
longstanding problem.
    So what conversations--or let us ask you this from your 
opinion. Did you ever once think, ``I need to get the law fixed 
because these children are not getting protected? '' You have a 
strong background and a strong history in protecting children. 
Were you ever personally troubled by your inability to protect 
children?
    Mr. Greenberg. Yes. Let me say more to answer that 
directly. There was some discussion before about this should 
not just be a paper process, and for me this has never been a 
paper process. I can tell you that I have visited the Rio 
Grande Valley four times over the last 2 years. When I go, I 
talk with children, providers and their staff, and with 
advocates and I talk----
    Senator Heitkamp. And we all do. We have all been at the 
border, and I have spent time there. You came back from that 
does a great job. We are here to learn. So when you came back, 
listening to those children, what policy change, 
recommendations did you make at DHS to prevent this from 
happening?
    Mr. Greenberg. What I would emphasize is it is very clear 
the way the law currently works that we have limited authority 
around home studies, and limited authority around post-release 
services. I have conveyed that very directly to this Committee 
in my prior testimony. When I publicly talk about the program, 
I make very clear the limited role that HHS plays.
    Senator Heitkamp. I do not mean to belabor this, but, when 
I was Attorney General (AG), we have a boarding school, an 
Indian boarding school that we were hearing rumors about 
behaviors, and no one wanted to take jurisdiction. Everybody 
said, ``No, that is somebody else.'' And I just thought 
somebody has to take responsibility for this. And so we just 
stepped into the void. And so, occasionally, don't you think it 
is smart, even when you see something involving the welfare of 
children, to step into the void, to challenge the legal 
ramifications and say let us do the right thing and sort it out 
later?
    The problem that we have here is that there are bad people 
in this country, there are bad people all over the world, and, 
I would be remiss if I did not ask the question for Senator 
Tester who had to leave. So I just want to say, OK, now we have 
this horrible situation which has been revealed that is the 
subject of this hearing. And it is Senator Tester and my 
understanding that the egg farm is still in business. Is that 
true, the egg farm is still operating?
    Mr. Greenberg. I have no knowledge other than press 
accounts.
    Senator Heitkamp. OK. What do you think happens when this 
all gets swept under the rug, when we are trying to really get 
at the bad guys, get at the people who do this, who think that 
they can continue--because these kids are invisible, continue 
to operate with impunity, to operate businesses that are 
nothing short of modern-day slavery, when we do not report it, 
when we do not have testimony from these kids because the kids 
are in the wind, they are gone?
    So my point, I guess, is that not only did we put kids at 
risk, but getting to prosecutions for people who do very bad 
things become impossible when we do not have the children 
protected. And so I would just say that I hope that what good 
comes out of this hearing, which has been, I think, more 
contentious than any of us thought it would get, that you guys 
really take this back and say, What is the perfect system? 
Maybe we cannot always have the perfect system. But at least 
the worst State foster care system, can we do as good at the 
worst-case foster care system in the Federal Government when we 
are protecting children?
    I look forward to your recommendations on what we can do 
not only from a law change but also from a resource management 
change.
    Thank you, Mr. Chairman.
    Senator Portman. Thank you, Senator Heitkamp.
    Senator Carper would like to make a brief comment about an 
earlier----
    Senator Carper. Yes, I just want to correct something for 
the record. Thanks so much, Mr. Chairman. I did an audible here 
when I spoke briefly earlier in the hearing and trying to 
explain why the numbers of illegal folks in this country was 
going down. And one of the reasons was because there are more 
people going from the United States into Mexico than the other 
way around. I mentioned I thought that Mexico had somewhere 
between 150 and 200 million people. They have 122 million 
people. If you add up the populations of Honduras, Guatemala, 
and El Salvador, it adds up to about just under 30 million 
people. So I think the difference in population is not 8:1. It 
is 4:1. But that helps to explain the changes in migration 
numbers.
    Thank you.
    Senator Portman. Thank you. Senator Johnson.
    Chairman Johnson. Thank you, Mr. Chairman.
    Mr. Greenberg, according to your bio here, you joined the 
Administration for Children and Families in 2009. Is that 
correct?
    Mr. Greenberg. Yes, it is, sir.
    Chairman Johnson. I want to kind of direct my questions to 
you because it coincides neatly with my chart where I date back 
to 2009. Again, just to remind you people, about 3,300 
unaccompanied children came in; the next year, 4,400; then 
about 4,000; then it started ramping up.
    I really want to just have you tell me what was happening 
within the agency during that time period. I want to understand 
the history of your manpower, how you grappled with this, kind 
of what started happening in 2012, 2013, 2014, when it really 
exploded.
    Mr. Greenberg. Senator Johnson, although I joined ACF in 
2009, I did not begin to work closely with the program until I 
became Acting Assistant Secretary, which was late in 2013. I 
can certainly speak to what has happened since that time.
    Chairman Johnson. OK. Well, do so. I want to hear to the 
extent this has just overwhelmed your management capacity.
    Mr. Greenberg. As I noted in my opening comments, the 
challenge for us was that the program did grow by nearly 10 
times over a 3-year period. From about 6,000 kids, to nearly 
60,000 kids. There is no question that in the summer of 2014, 
which was when I first testified before this Committee, we were 
facing a set of capacity issues about how to address the number 
of children that had arrived and to ensure that we were able to 
provide adequate shelter for them.
    It is also the case that after that situation got under 
control and as the numbers of kids went down, we did look 
broadly to say this is a program that has grown 10 times in 3 
years, what are the things that we need to do to strengthen it? 
Part of that involved significantly expanding the staff of the 
Office of Refugee Resettlement. Part of that----
    Chairman Johnson. So give me some numbers on that in terms 
of staff increases.
    Mr. Greenberg. I will ask Bob if he can say precisely, but 
approximately authorizing something in the range of about 70 
additional staff.
    Chairman Johnson. From what level? What was the baseline 
level to what? It went from where to where?
    Mr. Greenberg. I do not have the precise numbers in front 
of me. It was roughly 50-something full-time staff, some 
contractors, but it was roughly 50-something and adding another 
70. I would ask Bob if he can respond to that.
    Mr. Carey. That is accurate. Approximately 70 were added 
over the course of the surge.
    Mr. Greenberg. One thing that we did was greatly strengthen 
our staffing. A second thing we did----
    Chairman Johnson. So in 2009, we basically had about 50 
people in this capacity, roughly, because you are not going to 
really change much. And that was to handle about 3,300 kids, 
4,000, somewhere on that level. Then it started ramping up to 
10,000 to 21,000 to 51,000, and we took the offices from 50 
people to 70 people.
    Mr. Greenberg. No. We added 70 more----
    Chairman Johnson. That is what I am saying, I mean 50 to 
120.
    Mr. Greenberg. That is right.
    Chairman Johnson. So another 70 people, manpower to handle 
literally 50,000, 51,000 more.
    Mr. Greenberg. In addition, over that time we were greatly 
expanding the number of grantees who were providing shelter for 
the children. To highlight the other things that happened, we 
increased staffing. When the prior Director of ORR left, we 
made the determination to have both an ORR Director and to 
create a Deputy Director for Children's Programs and to create 
a Chief of Staff to strengthen the overall efforts. We created 
a Policy Division within ORR. Senator McCaskill mentioned 
before the issue of policy. We were concerned in 2014 that our 
policy was not transparent and that it was not readily 
available, therefore we created a Policy Division. They have 
been working to post our policies on the website. There was 
also a reference to the need for rules. We are actively working 
on a Notice of Proposed Rulemaking. It is our full intent it 
will be out this year. All of those things happened.
    In addition to that, I do want to emphasize that this set 
of things that we put in place around strengthening attention 
to child safety were things that we started doing later in 2014 
and early in 2015. In addition to the ones that I talked about 
in my testimony, we strengthened the conditions under which we 
would do child abuse and neglect (CA/N) checks. We have put in 
place clear policies for when criminal convictions will matter 
for purposes of disqualifying sponsors----
    Chairman Johnson. OK. I am running out of time. OK, good.
    Mr. Greenberg. OK.
    Chairman Johnson. As I said, again, just from the outside 
looking in, we have obviously gotten more efficient at handling 
the surge. I do want you to address what is currently happening 
in this first quarter. The fact that we went in 2014 from about 
8,600 in the first quarter--again, 2014, to remind everybody, 
that was the biggest year, close to 52,000 unaccompanied 
children. So that year started at about 8,600 kids. This year 
it is already up to 14,000--not quite double. What is 
happening? What has been your reaction to that?
    Again, we are not hearing the alarm bell sounding here, but 
I would think based on this Committee's report, their 
investigation, alarm bells should be sounding. So what is 
happening here? Describe the efficiency of how we are moving 
these kids and what is being, obviously, lost in the cracks in 
our efficiency.
    Mr. Greenberg. Between 2014 and 2015, the number of 
children fell from about 58,000 to 34,000. When I testified 
before the Committee in July, I talked about how the numbers 
had fallen. The numbers then began rising. Normally there is a 
spring-summer increase and then the numbers fall after that. 
The pattern that we saw this year did not correspond to that.
    The numbers did continue to rise through the fall and 
through December. Our January numbers are lower than the 
December numbers, but there is no question that these were 
higher. We have actively kept appropriators aware of those 
circumstances. We have been looking for additional----
    Chairman Johnson. Well, OK. So my time is done. My final 
comment is the true solution here is let us reduce and stop the 
flow, and that we have to really take a look at the policies in 
our own immigration laws that incentivize this behavior, and 
listen to the President of Honduras who said please end the 
ambiguity in our laws that is creating that.
    Again, I would like to take the pressure off, but in order 
to do that, we have to really look to the real root cause and 
what is driving this and creating these kind of tragedies.
    Thank you, Mr. Chairman.
    Senator Portman. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Gentlemen, let me bring up a couple 
things with you. The Trafficking Victims Protection 
Reauthorization Act of 2008, here is the statute: ``the care 
and custody of all unaccompanied alien children, including 
responsibility for their detention, where appropriate, shall be 
the responsibility of the Secretary of Health and Human 
Services.''
    The care and custody of all unaccompanied alien children is 
the responsibility of Health and Human Services, including 
their detention, if needed.
    Of the 90,000-plus children that are out there that have 
been put into care since 2008, if I were to ask you how many of 
those could you find right now, that we know where they are, 
how many of those do you think you could find? Give me a 
percentage guess of the 90,000-plus that are out there. They 
were placed in a sponsor's home, either saying this is a parent 
or a relative or a non-relative sponsor. Of the 90,000-plus, 
how many of them do you think you would know where they are if 
I asked you to give me a phone number or an address, you could 
tell me.
    Mr. Greenberg. Senator, I could not guess on that. I can 
tell you that we have the information at the time of release. 
If the child is receiving post-release services, we will have 
continued information after that.
    Senator Lankford. But you have no idea how many of them you 
could still contact today?
    Mr. Greenberg. We do not. Again, this is based upon our 
clear understanding of the law and what we are authorized to do 
under the law.
    Senator Lankford. ``The care and custody of all 
unaccompanied alien children, including responsibility for 
their detention, where appropriate, shall be the responsibility 
of . . . Health and Human Services.'' So I am trying to figure 
out the ambiguity in that. It would seem to be not just when 
they cross the border in that detention moment, but it is the 
care and custody. Once you have transitioned them to a sponsor, 
is it your assumption that is no longer the care and custody, 
now the law says once you give it to a sponsor it is the 
sponsor?
    Mr. Greenberg. That has been HHS' longstanding 
interpretation of the law, and what I want to make clear is 
that in the majority of cases, when children are released, they 
are released to their parents.
    Senator Lankford. OK. So let me ask you about that. How do 
you know it is their parents? What verification are you using 
that this is a parent? And how are you selecting where they go 
and, when it is a non-relative, where they are placed, who that 
is? Who chooses?
    Mr. Greenberg. Under the law that governs us, our first 
preference has to be for their parents----
    Senator Lankford. Correct, so how do you know it is the 
parent? That is what I am asking.
    Mr. Greenberg. There is a process for verifying the 
relationship between parent and child. It will involve the use 
of birth certificates and other forms of identification.
    Senator Lankford. OK. So let me back up, because I have 
done the same thing you have. I have been down to the detention 
facilities, which, by the way, before I came here to Congress, 
I was the director of the largest youth camp in the country. We 
had 51,000 guests a summer. We were a very large operation. So 
when I went and visited a facility where there were 1,000 
teenagers that were there, I am very aware of what it takes to 
do all the work around that. As I went and visited and talked 
to the kids and walked to the staff and interacted with the 
contractors that were there, I had individuals ask me later, 
``What did you think?'' I left and said, ``That facility is 
exactly how I would have run my camp if money was no object.'' 
Because there was a tremendous number of staff and buffers and 
all kinds of things wrapped around those kids. And what is 
astounding to me is how it runs the first 30 days that they are 
in the United States versus every other day after that for 
these kids. And so many of them never show up at their Notice 
to Appear (NTA), and we have no idea where they are, how they 
are being cared for, what has happened, how they have 
integrated into society, and we are aware that when we are put 
into a home that is not a near relative often, they never show 
up for a Notice to Appear, and we are aware they just 
disappear.
    Now, the struggle that I have is if you are aware a high 
percentage is going to disappear or you are aware that we are 
putting at people at risk of trafficking, why wouldn't we hold 
them at their initial facilities where they are being well 
taken care of until court proceedings and we know they are not 
going to be at risk in other locations and they can go through 
their court proceedings? And many of those are returned to 
their home country. They do not have a relative here, and so 
they are being returned to their home country. But, instead, 
they are being released into the United States to people we do 
not know who they are, we are not checking up on them, there 
has not been adequate fingerprints, there has not been home 
visits. There is no acknowledgment that we know where they are 
months later. But we are not detaining them as the law 
requires. We are releasing them knowing full well we will 
probably never see them again and they are illegally into our 
country. Help me understand that.
    Mr. Greenberg. Senator, I would first say that I agree that 
the services are very good in the shelters.
    Senator Lankford. They are. It is very good.
    Mr. Greenberg. we are very proud of them. We would 
encourage any Members of the Committee, WHO have not visited, 
to visit the shelters.
    We have a legal responsibility to release the children both 
under the Flores Consent Decree that governs us and under the 
TVPRA, which says that children need to be in the least 
restrictive setting in the best interest of the child.
    Senator Lankford. So take me a year back, go a year ago 
last January. We have a child that did not come with a letter 
and a phone number, which many of these children are coming 
across the border with a picture of someone, with a letter, 
with a phone number, some sort of identification, and what you 
did not say before is what I know to be true: You are selecting 
these sponsors because the child has a piece of paperwork in 
their hand saying, ``This is who I want to stay with when I get 
to the United States,'' correct? Most often the child is 
walking in and saying, ``This is the person I want to stay 
with.''
    Mr. Greenberg. That will often be the case.
    Senator Lankford. OK.
    Mr. Greenberg. Not always, but often.
    Senator Lankford. But parent/non-parent, then you are 
trying to guess then is this really the parent, and if it is a 
non-relative, you are still trying to guess: Is this really a 
good non-relative? Was this given to them by the coyote, or was 
this given to them by some parent in the past? They arrive 
then. They are placed in that. A year ago, did that person that 
they were being placed with, was there a fingerprint done for 
that individual that they were being placed with? Go back a 
year ago. So the sponsor/non-relative, when they said this is 
the phone number and the location I am told to go to, was there 
a fingerprint done for that sponsor? Yes or no.
    Mr. Greenberg. Senator, are you asking about a particular 
case or about policy?
    Senator Lankford. Just a yes or no. Do we do fingerprints 
on the sponsors on a Category 3 non-relative that this child 
walked in and had a phone number for, not knowing really all 
the history of that phone number, where that came from and that 
address, did we do a fingerprint on that person?
    Mr. Greenberg. Yes, there should have been fingerprinting 
done.
    Senator Lankford. Did we do a home visit for that person?
    Mr. Greenberg. A year ago, we would have only done a home 
visit if it fell into one of our categories----
    Senator Lankford. If they are special needs, if we thought 
they were----
    Mr. Greenberg [continuing]. Under the law or----
    Senator Lankford. Correct. So then let me ask a question. 
Did we verify that person was a legal citizen of the United 
States?
    Mr. Greenberg. We would not do that.
    Senator Lankford. Why?
    Mr. Greenberg. Because under the Flores Decree, we have an 
order of release, first to parents, then to close relatives, 
then other relatives----
    Senator Lankford. Even if it is not--because no foster care 
in the country is going to place a child in a home of someone 
that is illegally in the United States, that we have not done a 
full background visit, we have not done the process, because 
there is this sense that if we are going to have long-term 
custody or care, if it is a parent, that is a different issue. 
We are talking about a non-parent in here, to be able to place 
someone in a non-parent's home that is not a legal citizen of 
the United States or that there were people in the facility 
that were not legal.
    Mr. Greenberg. Senator, both you and other Senators have 
made a number of references to foster care. I want to emphasize 
the foster care system is different in a lot of ways.
    Senator Lankford. I understand it is. I was just looking 
for the question here.
    Mr. Greenberg. If I could just say a word about that. The 
foster care system does involve licensing and training of 
foster care parents and facilities. It involves paying foster 
care maintenance payments to them. It involves a structure of 
States having caseworkers who are doing monthly visits to the 
child.
    Senator Lankford. We all get that. That is not the 
question.
    Mr. Greenberg. I do want to emphasize that is a different 
structure than this one. If Congress wants this structure to 
look more like the foster care system, that is absolutely a 
choice that Congress can make.
    Senator Lankford. No, I think it is the decision on 
placement. I think it is not about long-term care and training 
and all those things. I get that. It is the decision on 
placement to say a person's fingerprint, background check, we 
know this person does not have criminal records, we know that 
that person does not have a Notice to Appear that they have 
skipped, and then that is obviously going to increase the 
chances that a child is placed in that house that is also going 
to skip a Notice to Appear, or the most basic thing that 
Senator McCaskill brought up over and over again is this issue 
of if a child skips a Notice to Appear, that is clearly 
negligence. They are not following the law. That is a clear 
issue that they were negligent in not delivering the child at 
that appropriate time. That should set off an alarm on this 
clear statute that says the custody and care of alien children 
falls on HHS.
    So I guess all we are trying to figure out is what are we 
missing at this point.
    Mr. Greenberg. On the specific question Senator McCaskill 
raised, we will followup. We will go back to the lawyers and 
talk about that one.
    I want to emphasize for sponsors how different it is than 
foster care. We are not paying these people anything. The 
children are typically not eligible for public benefits. This 
is just determination of who should the child live with while 
they are awaiting their immigration proceedings. In most cases, 
that is going to be the child's parent. If it cannot be the 
parent, we look for a relative, and only if we cannot find an 
appropriate parent or relative would we ever go to the family 
friend.
    Senator Lankford. All right. Thank you.
    Senator Portman. Senator McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Well, I want to thank you, Mr. Chairman, 
for holding this hearing on this very important issue, and 
especially the abuses that are inflicted on these young 
children once they get here.
    According to this, we now have in 2016, just in the first 
quarter, 14,260. Then if this keeps up, this would be a record-
breaking year. Is that true?
    Mr. Greenberg. If it does keep up, yes.
    Senator McCain. OK. Now, let us talk for a minute about how 
they get here. They get here, 99 percent of them, in the hands 
of coyotes, right?
    Mr. Greenberg. I would say often. I cannot say----
    Senator McCain. I am asking you straightforward questions. 
You and I know that the majority of them are in the hands of 
coyotes, right?
    Mr. Greenberg. I cannot offer a specific percentage. I can 
say when I talk to kids, I hear a range of stories about how 
they get here.
    Senator McCain. It is a well-known fact, Mr. Greenberg----
    Mr. Greenberg. It is often a coyote.
    Senator McCain [continuing]. That the majority of children 
are--that coyotes are paid thousands of dollars, and they are 
transported to our border. I mean, Mr. Greenberg, we are 
talking about facts that are well known.
    Mr. Greenberg. Senator McCain, I absolutely agree that it 
is a very common thing. I just could not say that it was 99 
percent.
    Senator McCain. Excuse me. OK. So they are in the hands of 
coyotes, right? The majority of them, right?
    Mr. Greenberg. Often.
    Senator McCain. Mr. Greenberg, you are a very interesting 
witness. You and I know that the overwhelming majority of 
coyotes are paid to bring them to the United States. They ride 
on the top of trains, and they often fall off and are killed. 
More importantly than that, young women who are brought by 
coyotes are invariably sexually abused on the way. We know 
that, right?
    Mr. Greenberg. We know that happens often, Senator. What I 
am saying to you----
    Senator McCain. OK. And we also know that these same 
coyotes that are bringing the children are also bringing drugs, 
right? Same cartels. Do you know that? You do not know that?
    Mr. Greenberg. Often.
    Senator McCain. It is more than often, Mr. Greenberg. It is 
invariably the case. And if you do not know that, then you are 
not doing your job. It is well known that the majority of 
children who come here are brought by coyotes, and it is well 
known that the coyotes are part of the drug cartels. Are you 
denying that? Yes or no.
    Mr. Greenberg. Senator, I am saying that I do not know 
that.
    Senator McCain. You do not know that? You do not know that, 
Mr. Greenberg, with your experience--I mean, this is crazy. 
Everybody knows that. Talk to any Border Patrol agent. Come 
with me down to Nogales, and they will tell you how they got 
there, and they will tell you who brought them, and they will 
tell you what happened to the children along the way. And for 
you to sit there feigning a lack of knowledge of the facts is 
really insulting.
    Mr. Greenberg. Senator, I have talked to Border Patrol 
agents and have done so regularly when I am down there. I do 
not want to speak for them, but what I am told is that often 
the coyotes are independent of the drug cartels. I do not have 
personal knowledge on this.
    Senator McCain. Why don't you have firsthand knowledge? 
Every other law enforcement agent does. All the Border Patrol 
people do. Everybody knows what the facts are. Mr. Greenberg, 
this is a very frustrating--OK. Well, let me tell you what is 
going on, Mr. Greenberg. Let me tell you. These are coyotes. 
They are part of the drug cartels. The overwhelming majority of 
children, their parents have paid thousands of dollars to have 
them transported, and many of the young women are sexually 
abused on the way. Those are well-known facts, Mr. Greenberg, 
and I do not know where you have been living, but you ought to 
know that, because those are facts.
    So then the question is: If those are facts--and they are--
then why don't we do more in the country of origin--Guatemala, 
El Salvador, Honduras--where we can have these young people 
come to our consulatesor our embassies and there apply for this 
asylum so they are not subjected to this terrible experience of 
being transported by coyotes, and who are drug dealers as well, 
to our border? And yet the information that I have is that the 
State Department received 4,000 applications for the program 
and conducted 90 interviews. What are you doing down there at 
these embassies and consulates, when young people come to you 
for shelter from the abuses and threats to their lives that are 
posed by the chaos within their countries, which are, by the 
way, mainly bred by drug cartels?
    Mr. Greenberg. Senator, the Administration does believe 
that having in-country processing is an important thing to do. 
The specifics of it are under the responsibility of the State 
Department.
    Senator McCain. Despite the fact that of 4,000 
applications, 90 interviews were held. They may believe that, 
but they are not doing it. Has there been any increase in 
consulate personnel or embassy personnel to handle these cases 
in these three countries?
    Mr. Greenberg. I am sorry. I cannot speak to that, Senator. 
It is best directed to the State Department.
    Senator McCain. So you would not have any idea, even though 
your responsibilities are on this issue.
    Mr. Chairman, I cannot ask any more questions of this 
witness. This is the definition of ``non-cooperative.''
    Senator Portman. Thank you, Senator McCain.
    We are now into our second round, and I am going to start, 
and I guess I am going to focus on the issue that I think 
Senator McCain has just touched on, and Senator Lankford, which 
is HHS unbelievably taking this position that somehow you are 
not responsible for these kids once they leave the detention 
facilities. You release them to a sponsor. Basically you are 
saying we have no more responsibility.
    You have taken that position even though Federal law, as 
was just quoted, says that responsibility for care and custody 
of all these unaccompanied minor kids rests with HHS and even 
though Congress has mandated HHS actually provide post-release 
monitoring in some cases specifically, and even those there is 
a judicial decree that governs this program, also known as the 
``Flores Agreement.''
    In response to Senator Lankford's questions, Mr. Greenberg 
and Mr. Carey, your response was, well, the Flores Agreement 
requires us to get these kids out the door. That is basically 
what your response was. Let me just make it absolutely clear. 
The Flores Agreement does not authorize you to cut corners, 
period. It clearly states that HHS should place children with a 
family member or a family friend who is ``capable and willing 
to care for the minor's well-being.'' That is in the Flores 
Agreement. That is a quote.
    It also says, of course, under the Trafficking Victims 
Protection Act that you are forbidden from releasing any 
unaccompanied alien child ``unless the Secretary of HHS makes a 
determination that the proposed custodian is capable of 
providing for the child's physical and mental well-being.''
    So this notion that you are going to hide behind the Flores 
Agreement or Federal law to me is you shirking your 
responsibilities. It is clear that HHS is not permitted to skip 
reasonable precautions that are necessary to make the 
determination that is provided for under law specifically and 
under the Flores Agreement.
    To me, I guess that is the biggest concern that I have 
after today's hearing, is that despite our work, the work of 
others, the AP investigation, the back-and-forth we have had 
with you for 6 months on this, that you continue to think that 
somehow your legal responsibilities do not continue after you 
place a child.
    Let me ask you this question: Has HHS ever terminated a 
sponsorship agreement for failure to properly care for a child 
and resume custody of that child? Have you ever terminated a 
sponsorship agreement?
    Mr. Greenberg. Not that I am aware of.
    Senator Portman. Mr. Carey.
    Mr. Carey. Not that I am aware of.
    Senator Portman. So out of tens of thousands of kids, you 
have never, including in this case in Marion, Ohio, when those 
kids were living in that trailer, with a bunch of adults, debt 
labor, you have never terminated an agreement?
    Mr. Greenberg. Senator Portman, if I can respond more 
fully, our view that we do not have continuing custody after we 
release the child is a longstanding HHS view. It was the view 
before I got there. I am happy to take it back to the lawyers 
and ask them about it again. Also, if this is an area where 
Congress wants the law to be different, Congress should change 
the law.
    Senator Portman. The law already says that, and the Flores 
Agreement already says that. Have you read the Inspector 
General's report on this? It dates back to 2008. Have you read 
that report?
    Mr. Greenberg. I would have to go back and check.
    Senator Portman. Well, the Inspector General of HHS 
recommended that if there was any doubt about this, that HHS 
and the Department of Homeland Security should enter into a 
Memorandum of Understanding to clarify ``which Department is 
responsible for ensuring the safety of children once they are 
released to sponsors and which Department is responsible for 
ensuring sponsors continue compliance with sponsors' 
agreements.'' Have you read that? Have you read that report?
    Mr. Greenberg. I do not recall reading that, Senator.
    Senator Portman. I would encourage you to read it. HHS has 
had quite a long time to think about it. It dates back 8 years.
    After these 8 years have passed without any final action on 
your part to clear up this basic question about HHS versus DHS, 
these kinds of conditions are present. This is the result, 
never having terminated a sponsorship, despite some of these 
horrific conditions that we are talking about today.
    I will tell you, you have missed opportunities one after 
another. I talked about that in my opening statement. But this 
is certainly the biggest one, just not taking the 
responsibility and not doing any kind of appropriate oversight.
    You talked earlier about the fact that you have these home 
visits. We have looked into this, and we heard that home visits 
were something that you did. You gave us some numbers on it. We 
looked at your own numbers, and we found out that it was only 4 
percent of the cases. Is that your understanding?
    Mr. Greenberg. That is my understanding, yes.
    Senator Portman. Four percent home visits. It is no wonder 
you have these kinds of problems. Senator McCaskill.
    Senator McCaskill. What is the most important thing you are 
going to do after this hearing?
    Mr. Greenberg. After the hearing, I am going to read the 
Committee's report. I am going to ensure that we share it with 
staff and all other interested parties in the Department, and 
that we actively discuss the findings from the report and what 
the implications are for our existing policies and what we can 
do to strengthen our policies.
    Senator McCaskill. And would you put an asterisk on the to-
do list to ask the lawyers to put in writing why they think 
that you all have no responsibility after you place these 
children in particularly Category 3 homes?
    Mr. Greenberg. Yes. I have that on my list from our earlier 
exchange, and we will absolutely followup on that.
    Senator McCaskill. Yes, because it seems to be the heart of 
the matter here. Let me just give you this factual recitation.
    On July 1, 2015, a Federal grand jury indicted four 
defendants in Marion. In October 2015, 3 months later, HHS 
officials met with the Subcommittee staff of this Committee. 
The staff of this Committee met with HHS. At that meeting, 3 
months after an indictment, the HHS officials knew little or 
nothing about the children involved in the case or with the 
details of the placements with their sponsors.
    I mean, this lack of urgency is cultural, Mr. Greenberg. If 
I were sitting in your job and I picked up the morning paper 
and said four people have been indicted for trafficking 
children that your agency had placed in there are, I mean, red 
lights would flash, sirens would go off. There would 
immediately be a team of people to look and see what children 
were placed there, were there other children placed there, what 
were we told, did we look at the documents. And none of that 
had occurred. It was like, ``Well, yes.''
    So when were you first notified that unaccompanied children 
placed by HHS had been trafficked in the Marion case? When was 
your first notification?
    Mr. Greenberg. To the best of my recollection, I became 
aware when the indictment came out and there was press at that 
time. I can tell you that at that time I did talk with ORR 
about our existing policies and what else we needed to do to 
strengthen them. As you can see, and as you saw in my 
testimony, we broadened the home study requirements in July, to 
extend to circumstances where a sponsor was trying to sponsor 
more than one child or had previously sponsored a child. We 
built in, in September, a requirement for the shelters to look 
to see if a sponsor has been trying to sponsor more than one 
child, or if multiple children are going to the same address.
    Senator McCaskill. Had your documents not been subpoenaed 
by the Federal authorities at that point, the information about 
the sponsors? Had they not come to you in the investigation 
about what information you had about these sponsors?
    Mr. Greenberg. I cannot speak to the specifics of----
    Senator McCaskill. Mr. Carey, did they come to ORR asking 
for documents during their investigation?
    Mr. Carey. I was not at ORR at that time.
    Senator McCaskill. Would somebody find out the answer to 
that question?
    Mr. Carey. Certainly, we can find out.
    Senator McCaskill. Because I am just thinking, as law 
enforcement, if I am the prosecutor that is presenting that 
case to the grand jury, I am going to want all those documents 
in hand as I prepare that case. So I would be interested to 
know if, in fact, they had asked for the documents, because you 
all have documents that were signed and executed giving those 
children sponsors. And some of those sponsors ended up being 
felons.
    Now, my last question, because I am out of time and I know 
we have to get to the second panel. You have been struggling 
with trying to come up with a written policy for this program 
since 2008. There have been drafts of operational manuals, 
there have been drafts of policies floating around for years 
under consideration. You had these indictments in the middle of 
last year. Up until 3 days ago, it was the policy of HHS that 
it was OK if other adults in the house had been convicted of 
sex crimes with children.
    Now, can you relate to why I have a lack of confidence in 
your ability to draw up policies and procedures? How did that 
get missed? How did not looking at criminal backgrounds even of 
the sponsor who takes over if the original sponsor disappears, 
how is that something that in all these drafts and policies 
that are floating and, we have emails, comments on them, this 
has been around for years, how is that missed that you are 
going to place a child in a household with convicted felons 
where children have been the victims?
    Mr. Greenberg. I agree that is a change that needed to be 
made, and I am glad we made it.
    Senator McCaskill. That does not give me a lot of 
confidence.
    Mr. Carey. May I clarify? The policy as it existed did not 
provide an absolute bar based on a criminal history, but it 
does not mean that the criminal history was assessed, and if it 
was seen as a threat to the child, the reunification did not 
take place. There is now an absolute bar.
    Senator McCaskill. I understand. It was possible for them 
to turn them down if they did the check, but they were not 
doing the checks on the other adults living in the household. 
And, second, if it came back, it was up to that individual to 
decide whether or not that particular conviction for child 
abuse was OK or was not OK. Somebody said in the process of 
this investigation, ``Well, sometimes people get accused of 
child abuse in a domestic situation,'' like that was somehow--
we are talking about felony convictions for child abuse. Hello.
    I understand that they could have disqualified him if they 
had run the criminal background checks. But they were not being 
run on many of the people that would have been in these 
children's lives, and even if they found the conviction, they 
were not required to bar that person. That is the point I am 
trying to make, Mr. Carey, and I do not think that there is 
much excuse for that.
    Thank you, Mr. Chairman.
    Senator Portman. Thanks, Senator McCaskill. I would add, as 
you know, that there was no criminal conviction that was too 
serious.
    Senator McCaskill. Right.
    Senator Portman. Even if they did the background check and 
found out that someone was a habitual sex offender, HHS policy 
was there was no----
    Senator McCaskill. Automatic bar.
    Senator Portman [continuing]. Criminal background that was 
too serious.
    Look, I know we need to get on to the next panel. We have 
some witnesses we really want to hear from. I would just end 
with two thoughts.
    One, this notion that there is not enough resources, just 
so you know, in 2014 Congress appropriated $912 million at the 
end of 2014. This is the period of time we are talking about; 
$200 million were left unobligated, not spent, not committed. 
That is about 25 percent of the budget was not even spent. In 
2015 Congress appropriated $948 million, an increase. How much 
was not spent? About $278 million. So this notion of inadequate 
resources, just so you know, is not an excuse.
    Then, finally, just to say we have laid out here today five 
or six specific issues that we would like you to take back, and 
I appreciate the fact, Mr. Greenberg, that you said you will 
read the report and that you will work with us to make some of 
these changes. Some were made this week. For instance, this 
criminal conviction issue was made on January 25. As I said 
earlier, that is progress. I am glad we had this opportunity to 
have the back-and-forth with you over the last 6 months. There 
is more to do, including clarifying this policy. I encourage 
you to read the Inspector General's report from 8 years ago. 
These are, as Senator McCaskill has said, issues that have 
languished for too long without being addressed. And, 
unfortunately, we see that during this first quarter we have 
another surge. And we want to be sure that those kids who were 
abused, who were in servitude in Marion, Ohio, that their case 
can be an example not just to talk about at a hearing but to 
ensure that other kids do not fall into that same trap. And 
that requires you to do a better job of deciding where these 
kids ought to go and monitoring their situation. And you have 
every authority to do that under current law, and we insist 
that you do it.
    So thank you for being here this morning, Mr. Carey and Mr. 
Greenberg. We appreciate your coming to testify.
    We will now call the next panel.
    [Pause.]
    Thank you all for being here.
    We are privileged to have some experts before us to talk 
about some of the issues that we have just talked to HHS about.
    Our first witness is Tiffany Nelms. Tiffany Nelms is the 
Associate Director of children's services at the U.S. Committee 
for Refugees and Immigrants (USCRI) where she oversees the 
organization's national home study and post-release service 
program for unaccompanied children. She has a background in 
case management, has worked on behalf of immigrant children and 
families for 15 years, and she is a licensed social worker.
    Jennifer Justice, the middle of the panel, we are pleased 
to have you. Jennifer Justice is the Deputy Director of the 
Office of Families and Children in the Ohio Department of Job 
and Family Services (ODJFS). Among other duties, her office 
oversees Ohio's child and adult protective services, foster 
care, adoption, and child abuse prevention programs. Thank you 
for being here.
    Finally, last but not least, we have Kimberly Haynes. 
Kimberly is the Director of children's services at the Lutheran 
Immigration and Refugee Service (LIRS), one of the great 
resettlement groups, which serves unaccompanied children, among 
others. She has over 20 years of experience in child protection 
and social work, including a consultant supporting a variety of 
refugee assistance programs within the Office of Refugee 
Assistance. We just heard from them. She has a master's degree 
in social work and management administration and community 
organization, with a specialty in children and youth. Thank you 
for being here.
    Again, it is the custom of this Subcommittee to swear I our 
witnesses, so I would ask you please to stand and raise your 
right hand. Do you swear that the testimony you will give 
before this Committee will be the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Ms. Nelms. Yes.
    Ms. Justice. Yes.
    Ms. Haynes. Yes.
    Senator Portman. Thank you. Let the record reflect that the 
witnesses answered all in the affirmative.
    Your written testimony will be printed in the record in its 
entirety. We would ask you, if you could, try to limit your 
oral testimony to 5 minutes, and we will have a chance for a 
little give-and-take. We may have some votes that come up, and 
we want to be sure and have the opportunity to have some 
dialogue with you.
    Ms. Nelms, we will hear from you first.

      TESTIMONY OF TIFFANY NELMS,\1\ ASSOCIATE DIRECTOR, 
UNACCOMPANIED CHILDREN'S SERVICES, U.S. COMMITTEE FOR REFUGEES 
                         AND IMMIGRANTS

    Ms. Nelms. Thank you so much. Good morning. Thank you to 
Chairman Portman, Ranking Member McCaskill, and Members of the 
Subcommittee, for the opportunity to amplify the voices of the 
thousands of children seeking safety and protection in the 
United States and to share their stories.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Nelms appears in the Appendix on 
page 78.
---------------------------------------------------------------------------
    My name is Tiffany Nelms. I am a social worker and the 
Associate Director of unaccompanied children's services at the 
U.S. Committee for Refugees and Immigrants, and for nearly a 
decade, I have worked with these children, and their 
perseverance and many successes motivates me to continue this 
work; but our failures to protect and adequately support them 
keeps me up at night.
    For over 100 years, the U.S. Committee for Refugees and 
Immigrants has protected the rights and addressed the needs of 
persons in forced or voluntary migration worldwide and 
supported their transition to a dignified life. We help the 
uprooted by facilitating and providing direct professional 
services and promoting the full participation of migrants in 
community life. We understand the situation because we work 
with refugees and immigrants every day.
    Let me tell you about a girl who I will call Karen. Her 
family eked out a meager living by selling bottled water and 
candy to tourists in a popular beach town in Honduras. After 
completing only a few years of school, Karen was forced to work 
and help support her family. For many years, Karen's extended 
family was targeted by gangs because they refused to pay a 
``tax'' or ``rent.'' This tactic is commonly used by gangs to 
extort money from regular people. In exchange, those who pay 
the tax can live in, work in, or transit a community the gang 
has claimed. When she was 10 years old, Karen's uncle was 
murdered by the gang, a punishment for his refusal to pay this 
``tax.'' The murder served as a warning, and Karen's parents 
fled, hoping to fall off the gang's radar. Their house was 
subsequently burned to the ground.
    At 14, Karen's parents allowed her to marry a man in 
another town to protect and provide for her. Karen became 
pregnant, and after the child was born, the physical, 
emotional, and sexual abuse started. She did not seek help from 
the authorities because crimes against women and girls are 
rarely prosecuted in her country.
    Karen eventually left her husband, and she and her child 
sought safety with her parents who were living with Karen's 
cousin. However, this cousin was kidnapped, tortured, and 
murdered by members of the local gang as punishment for 
resisting their sexual advances and attempts to recruit her. 
The gang left her body in pieces on her doorstep as another 
warning of what could happen to Karen and her family. The 
murders of Karen's uncle and cousin were never investigated. 
This deepened the family's distrust of the local authorities, 
and fearing she might be next, Karen fled to the U.S. border 
seeking protection, where she was detained and transferred to 
the care of the Office of Refugee Resettlement.
    In the past 2 years, we have seen rapid increases in the 
number of children, most of whom qualify for refugee status, 
who are seeking basic protection from violence, abuse, and 
neglect in their communities. These children's needs are not 
being met in their countries of origin.
    Approximately 10 percent of Central American children who 
are extremely vulnerable qualify for post-release services 
after reunification with a sponsor. This means they receive 
three home visits in 6 months. Many of these especially 
vulnerable children end up on a waitlist, and some must wait up 
to 6 months after release before a provider is available to 
serve them due to capacity restrictions.
    There is no other system that places children, some that 
have no prior relationship or recollection of their sponsor, 
and provides no followup or monitoring of the child's well-
being after the placement.
    Children who speak some English and at least have access to 
informal ``helpers'' such as teachers, pediatricians, and 
police officers--connections within their communities who are 
trustworthy and will notice any irregularities or, at worst, 
abuse or neglect. These are connections that are not guaranteed 
for unaccompanied children with limited English proficiency 
often with no connections to their communities beyond their 
sponsors. These children are especially vulnerable to being 
abused, neglected, exploited, or trafficked by their sponsors.
    Post-release services are critical. They connect 
unaccompanied children to medical and mental health care, 
ensure that children are enrolled in school in compliance with 
compulsory school attendance laws, and provide children with 
access to legal representation, something that is not 
guaranteed for unaccompanied children and which significantly 
increases their likelihood of attending their immigration 
hearings. In addition to ensuring access to resources, post-
release service providers monitor the children's well-being and 
integration to their new homes and communities. These social 
workers detect situations in which children are abused, 
neglected, exploited, or trafficked.
    For example, our staff has identified victims of labor and 
sex trafficking among this vulnerable 10 percent of the 
children that qualify for post-release services. Presently, 
post-release services are stretched thin, and the quality of 
these services is in jeopardy as we are asked to do more with 
less, increased caseloads and not enough time to meet the needs 
of the children in our care.
    Here are some recommendations about how to remedy this. We 
suggest that post-release services become available to every 
unaccompanied child. Post-release services work. The children 
served through USCRI's program have a 95-percent attendance 
rate at their immigration hearings and similar outcomes for 
school attendance.
    We recommend that ORR expands capacity within the national 
post-release services networks so children are served in a more 
efficient and expeditious manner, reunited with family in a 
timely and safe way, and able to access the education and 
medical and mental health care that they deserve.
    And we recommend that they streamline reunification 
processes in consultation with national post-release service 
providers.
    You may be wondering what happened to Karen, the girl I 
described in the beginning. Delays and lack of adequate 
representation resulted in Karen being deported just after her 
18th birthday. Despite our best efforts, we are currently 
unable to locate her in-country to confirm her safety. We do 
not know her whereabouts.
    We recognize that these children have fled to the United 
States seeking protection, and we take seriously our role as 
guardians while their immigration claims are reviewed and 
evaluated. When a child receives due process resulting in a 
deportation order, he or she must return to his or her country 
of origin. However, while these children are in our care, we 
can do more to welcome and protect the most vulnerable among 
us.
    Thank you.
    Senator Portman. Thank you, Ms. Nelms. Ms. Justice.

 TESTIMONY OF JENNIFER JUSTICE,\1\ DEPUTY DIRECTOR, OFFICE OF 
   FAMILIES AND CHILDREN, OHIO DEPARTMENT OF JOB AND FAMILY 
                            SERVICES

    Ms. Justice. Thank you, Chairman Portman, Ranking Member 
McCaskill, and Members of the Subcommittee. Thank you for the 
opportunity to provide testimony to explain the foster care 
licensing process in the State of Ohio. I oversee Ohio's child 
welfare system at the Ohio Department of Job and Family 
Services and have held the position since 2011. I have worked 
in the child protection system for over 19 years, and in my 
current position, I am in charge of supervising Ohio's child 
protection programs, including protective services, foster 
care, kinship, adoption, the Interstate Compact for the 
Placement of Children (ICPC), and independent living services. 
Today I want to highlight some of the important licensing 
requirements for prospective foster applicants.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Justice appears in the Appendix 
on page 83.
---------------------------------------------------------------------------
    Ohio's foster parent applicants must be at least 21 years 
of age and must have enough income to meet the basic needs of 
the household. They must be free of any physical, emotional, or 
mental condition that could endanger a child or impair their 
ability to care for a child.
    Everyone over the age of 18 living in the house must submit 
to State and Federal criminal background checks as well as an 
Ohio alleged perpetrator search through the Statewide Automated 
Child Welfare Information System (SACWIS). A SACWIS search is 
done to see if the applicant has a substantiated or indicated 
report of child abuse or neglect.
    A foster parent applicant must disclose if a person between 
the ages of 12 and 18 years of age residing in the household 
has been convicted or pled guilty to certain offenses or 
adjudicated delinquent.
    A fire inspection must be completed and training must be 
completed.
    The required background screens must be completed no less 
than every 4 years if foster parents are to continue to be 
licensed. Criminal background checks are required to be 
conducted by all 
Title IV-E agencies per the Code of Federal Regulations (CFR).
    If an applicant fails to provide the information necessary 
to complete a background check, the person will be denied 
certification as a foster caregiver.
    If an applicant has a felony conviction for spousal abuse, 
rape, homicide, or sexual assault, he or she would be 
prohibited from becoming a licensed foster parent. This also 
applies to all adult household members.
    Ohio has a comprehensive list of misdemeanors and felonies 
that prohibit applicants from becoming licensed unless certain 
rehabilitation standards are evident.
    When we look at financial stability, we look to see that 
applicants have enough income to meet the basic needs of every 
child. A foster applicant must provide proof of income for the 
household for the most recent tax year period and proof of 
income for the most recent 2 months, as well as their utility 
bills.
    Along with these requirements, a foster care home study 
must be completed. This evaluation of the residence is 
completed by a licensed agency's assessor and takes place 
physically inside the residence with the foster parent 
applicant present.
    Not all foster applicants end up being licensed. Some 
voluntarily withdraw, and some are denied a license. Applicants 
may be disqualified for offenses in their background check, or 
their living conditions may be unsafe.
    Although foster care placements are often necessary, Ohio 
works hard to identify relatives and non-relatives who are 
familiar to the family as placement options to reduce the 
trauma that comes with removing children from their parents. 
Relatives and non-relatives over 18 years of age living in the 
home must undergo all the same criminal background checks as 
foster parent applicants. Their homes are also evaluated, and 
an assessment is conducted of their ability to provide a safe 
placement.
    Once children are placed with licensed foster families or 
approved relatives and non-relatives, monthly home visits occur 
until the child is reunified or another permanent placement is 
found. Monthly home visits are conducted by a caseworker 
employed by the agency that holds custody of that child. State 
policy reinforces this Federal requirement to provide for the 
well-being of all children that have open child welfare cases. 
Visitation data is required to be reported to the Federal 
Government, and all States are required to meet or exceed 95 
percent of all required visits.
    The approval process for children who are placed across 
State lines is defined in the Interstate Compact for the 
Placement of Children (ICPC). This is a statutory law in all 50 
States and is designed to protect children placed across State 
lines so that they will be placed in a safe, suitable 
environment. In accordance with Ohio laws and policies, all 
home study and criminal background check requirements that I 
described a minute ago apply to these placements as well.
    Ohio appreciates the ongoing technical assistance provided 
by the Administration of Children and Families' regional 
office, and I appreciate this opportunity to provide testimony 
here today, and I am happy to answer any questions the 
Subcommittee may have.
    Senator Portman. Thank you, Ms. Justice.
    We will now go to Ms. Haynes, and I will say before you 
start your testimony, Ms. Haynes, a vote has been called--in 
fact, two votes, and Senator McCaskill and I have decided to 
stay through your testimony. Then we are going to ask you if 
you would please be patient while we run over and vote at the 
end of the first one and beginning of the next one, and we will 
adjourn the hearing during that period, then come back to 
reconvene.
    So, with that, do not be offended if we run out after your 
testimony, literally run out. Ms. Haynes.

   TESTIMONY OF KIMBERLY HAYNES,\1\ DIRECTOR FOR CHILDREN'S 
       SERVICES, LUTHERAN IMMIGRATION AND REFUGEE SERVICE

    Ms. Haynes. Chairman Portman, Ranking Member McCaskill, and 
Members of the Subcommittee, thank you for this opportunity to 
provide the testimony about the efforts to protect children 
from trafficking.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Haynes appears in the Appendix on 
page 87.
---------------------------------------------------------------------------
    My name is Kimberly Haynes. I am a Social Worker. For the 
last 5 years, I have been the Director of children's services 
at Lutheran Immigration and Refugee Service, where I oversee 
our ORR programs for unaccompanied migrant children, which 
include Federal foster care, safe release support sites, home 
studies, and post-release service case management services. I 
have worked with unaccompanied refugee and migrant children 
both here and the United States and in an international context 
for over a decade.
    LIRS is a faith-based organization which has been serving 
refugees and migrants for over 75 years, unaccompanied children 
from all over the world for over 40 years. LIRS believes all 
children have the right to protection and family unity.
    As the only service provider that serves unaccompanied 
children throughout all stages of care, LIRS is uniquely 
situated to identify the gaps in protection, make 
recommendations to improve the system and U.S. policies and 
practices, ensuring the safety and well-being of these 
children. While I submit a more detailed written testimonial, I 
wish to express that the United States has a strong domestic 
child welfare system which contains many best practices that we 
can use to enhance and strengthen the current system used for 
unaccompanied children.
    I will focus my remarks in two areas: first, on protection 
gaps in the current system; and, second, provide 
recommendations to improve the family reunification practices 
so that incidences of trafficking or harm may be more readily 
identified, prevented, and mitigated.
    It is LIRS' position that ORR is in the best position to 
provide the care and protection for unaccompanied migrant 
children. However, it is imperative that adequate protection 
practices are in place to ensure the child's safety and well-
being during and after release from ORR custody to sufficiently 
support the child and family's ability to protect, care from, 
and integrate into communities.
    Over the years, ORR has continuously revised and expanded 
its depth of knowledge and practice in serving this unique 
population. As I detailed in my written testimony, one 
excellent practice is the provision of post-release services 
for certain vulnerable children. In recent years, however, with 
a higher number of unaccompanied children arrivals, ORR has 
revised certain policies in order to expedite family 
reunification and limit the amount of time a child would remain 
in ORR custody. ORR's budgetary limitations meant that its 
capacity to provide its full range of services was limited, and 
children were spending weeks in overcrowded, unsafe Customs and 
Border Patrol (CBP) cells before being transferred to ORR. This 
situation was detrimental to their health and well-being. LIRS 
does not wish to see this happen again.
    LIRS has been serving unaccompanied children and their 
families for over three decades. We believe that our country 
can do better than releasing children to unsafe conditions due 
to the lack of resources. We need to treat these children as 
children first and foremost and provide the protection we 
afford all children while safeguarding their rights to family 
unity.
    LIRS makes the following recommendations:
    First, ORR should prioritize child protection and safety in 
reunification decisions over reunification timelines and fiscal 
concerns. We need to see these as children who are needing our 
safety and our protection and deserving family unit.
    Second, ORR should ensure that all children have access to 
some post-release services, at least, a minimum, one home visit 
after family reunification. These services should be trauma-
informed, individualized, community-based, and case management 
services. Congress should also appropriate the necessary funds 
so that ORR can provide these services.
    Third, ORR should revise the sponsor assessment tool and 
sponsor reunification packet to ensure gathering of relevant 
information. This should be an in-person risk assessment of the 
sponsor, a sponsor needs assessment, and a sponsor orientation 
that promotes the child's safety, stability, and well-being.
    Fourth, ORR should monitor the impact of changes to 
fingerprint background check requirements and revise policy 
accordingly. The safety of children and screening of sponsors, 
including parents, must be more consistent and appropriately 
balanced.
    Fifth, ORR enhance their engagement with NGO's and 
stakeholders in order to help improve their policies, or our 
partners such as LIRS will continue to work with ORR on 
improving policies that utilize best practices in child welfare 
services. However, if ORR is to fully implement these best 
practices, they need the resources to do so.
    Sixth, Congress and HHS should provide resources for a 
nationalized child abuse and neglect database system for child 
abuse and neglect checks so long that waitlists for multiple 
checks mean that children are waiting for reunification an 
extended period of time in facilities.
    Finally, Congress should provide ORR with contingency funds 
so that in times of higher arrivals of unaccompanied children 
or refugees, ORR can adequately provide the services required.
    Thank you for the opportunity to share reunification 
recommendations and best interests for unaccompanied children.
    Senator Portman. Thank you, Ms. Haynes. And we appreciate 
the three of you, if you can, showing the patience to stay 
around while we recess subject to the call of the Chair. We 
look forward to talking about those budgetary shortfalls since 
they are not spending 20 to 25 percent of the money they are 
being appropriated. I do not know what they are telling you as 
a service provider, but I do not think that can be the reason. 
But we will talk more about that.
    Senator McCaskill and I will return, and we are now 
recessed subject to the call of the Chair.
    [Recess.]
    Thank you all for coming back. We will now reconvene this 
hearing. Senator McCaskill is on her way, and I am going to 
start asking a few questions, and then she will be here 
shortly.
    First of all, thank you for your testimony and your 
willingness to spend time and help us with our report, help us 
with some of the ways in which we can help address the problems 
that we have identified today. Each of you has a strong history 
in this area. You bring different perspectives a little bit, 
Ms. Justice more from the Ohio perspective and foster care 
perspective, and, Ms. Haynes, you had some very specific 
thoughts that you thought would be helpful. And, Ms. Nelms, we 
appreciate your testimony as well, particularly on the issues 
of home studies.
    My first question is about what we call ``home studies.'' I 
think they are incredibly important because it is the only 
opportunity to have a face-to-face meeting, and HHS, of course, 
does not perform many. For 90 percent of the cases, I think 
they have no idea if the sponsor is actually who he or she says 
he or she is. In other words, what they are alleging in their 
application may not be true.
    Over the past 3 years, HHS has performed home studies in 
about 4 percent of placements based on the analysis of our 
staff. Can you tell us a little more, Ms. Nelms, about what you 
think about home studies? In other words, for those who are not 
following this closely, it is an opportunity to go and actually 
see something like that trailer or to see where these addresses 
are, to talk to the people face to face. Could you give us a 
sense of whether you think that is something that as a care 
provider you would think is important? And if you did a home 
study, what would you be looking for?
    Ms. Nelms. Thank you for that question. The home study 
process has been changing over the years. When I started in 
this field 10 years ago as a social worker, we had 90 days to 
conduct a thorough assessment, interview the child, interview 
the family in home country, interview the potential sponsor and 
any household members, and visit the home, and really do our 
homework. And this process has evolved over the last 10 years, 
and I think in response to the increase in the number of 
children, and also we all want children to be reunified as 
quickly as possible when it is a safe and appropriate placement 
and reduce their length of stay in detention.
    However, it should not be by compromising the safety of the 
child, and some of the changes that have happened, we saw home 
studies reduced from 90 to 60 to 30, and last month, the home 
study timeframe we have been given is 10 days to conduct a home 
study. And that is now part of a bigger assessment, so we are 
one piece, and the only thing at this point that is required is 
an interview with the child and the sponsor and a visit to the 
home.
    As a social worker, to maintain the integrity of that home 
study process, you really need one person looking at all the 
facts, corroborating the stories, confirming that there is a 
proof of relationship to avoid situations like what happened in 
Marion where the person presents as a family friend. And a 
social worker would quickly identify that in conducting a 
family tree, for example, with the child and the potential 
sponsor and somebody in home country that they are not able to 
match those names on that family tree. That is a very easy way 
to prevent something like this from happening, and this, 
unfortunately, is not something that we are able to do at this 
point with the recent policy changes.
    Senator Portman. That is very disturbing, and in our report 
we talk some about this issue, the fact that, as you say, 10 
years ago there was a very different policy in place, and it 
has gotten more and more strict over time to the point that you 
have very little time and that there is only, again, 4 percent 
of the cases now is there any home study at all. And you are 
right. I mean, some of the followup questions are pretty 
obvious. The family tree is one. Maybe it is like, if you were 
a friend of the family, where does the family live? What color 
is their house? Who is their neighbor? What is the mother's 
maiden name? Just anything. They are not asking for any of 
that, as I understand it.
    And I would think, Ms. Justice, in your work, you ask those 
questions in a much deeper way and, you do not place any kid 
without going through an extremely lengthy process. But at 
least to know, Ms. Nelms, that this is the person who they say 
it is.
    One of the cases, as you know, was this young man who was 
given the plane ticket by HHS with the sponsor to go to a 
particular place where the sponsor was supposedly living, gets 
off the plane, and this unaccompanied minor or unaccompanied 
child has testified that the sponsor took off and literally, 
the traffickers were there waiting for the kid. And the sponsor 
had been sponsored by the traffickers. It was one of these just 
obvious situations that with just a little bit of testing--and 
then in terms of the home studies, you can find out information 
about potential abuse that Senator McCaskill and others talked 
about earlier with some pretty simple questions and with some 
experience, as you all have, to be able to know what you are 
looking for.
    Ms. Justice, would you tell us just briefly, when you are 
required to conduct a home study, I assume that happens when 
you are going to place a child with a foster parent or probably 
any non-relative. What does that entail?
    Ms. Justice. Sure.
    Senator Portman. What do you do?
    Ms. Justice. Yes, so our foster home study process in Ohio 
is very detailed and thorough. We study homes, whether it be 
with relatives, non-relatives, or a licensed foster caregiver. 
Certainly having a license as a foster caregiver is much more 
comprehensive in nature, and there is training required. But in 
all cases, we are going to visit the residence. We are going to 
walk through the home. We are going to ensure that there is 
proper ventilation, heat or cool, depending on, where you live. 
We are going to look at where the child would sleep. We are 
going to look at is there proper food in the house. We are 
going to engage the family and ask them very specifically how 
they intend to care for the child, what are their discipline 
policies, things like that.
    We are going to talk to the child as well and ensure that 
they feel safe. There is a multitude of things. We are going to 
look to see if that family has weapons in the home. Are they 
properly stored to ensure the safety of the child?
    It is a very well thought out process. We use checklists to 
make sure we do not miss anything, because we want to ensure 
the safety of all children that are in our custody, that cannot 
stay home because they are unsafe there, and so when they are 
in our custody, we need to make sure that they are as safe as 
they can be.
    Senator Portman. So let me ask you this question. You are 
from Ohio, and you obviously picked up your paper 7 months ago, 
and you saw this incredible story that was happening in Marion, 
Ohio, just 50 miles from where you live, probably. I assume you 
live in Columbus.
    Ms. Justice. Yes.
    Senator Portman. What did you think? I mean, did this seem 
just unbelievable to you given your background? Or did you know 
the Office of Refugee Resettlement does not perform any of 
these sorts of checks?
    Ms. Justice. Actually, I am unaware of ORR's policies and 
procedures. Certainly, as a child welfare professional for my 
entire career, anytime I see a child that has been abused or 
neglected, it saddens me. It is troublesome. It is the worst 
thing that a person in my position can hear about. We are 
always striving to make sure that that does not happen, but 
there are bad people in this world and it does happen. But, 
no--and so, yes, certainly it is very disheartening, and I hope 
those children are better off now than they were.
    Senator Portman. Yes, and we hope that other kids are, too. 
One thing we have found in our study is the investigation 
revealed that HHS does not know. We do not know how many kids 
are in situations like this.
    And, Ms. Haynes, you talked a little about the national 
database and criminal checks. One question we have asked them 
at HHS, as you know perhaps, is how many kids have gone to live 
with a convicted felon. And guess what their answer is? ``We 
have no idea. We do not keep track of that.''
    So even if they are doing fingerprinting on some of these 
sponsors and asking about criminal records, which, as you know, 
until this week you could be a child molester, a rapist, you 
could be a murderer, and there was no automatic ban to placing 
the child. But even when they did know what the record was, 
they do not keep any database of it. So there is no way to 
know.
    So tell us, I mean, I am not sure if that is what you are 
getting at when you talk about national database in your 
testimony, but what do you think ought to be done there in 
terms of at least understanding what the problem is?
    Ms. Haynes. As you mentioned, I think there are a couple of 
layers of protection that need to be put in place, and that is 
a practical balance of CA/N checks across the board, no matter 
who is sponsoring the child. I think the reality is also that 
checks are having to be done in multiple States. We know the 
population. We know that they are highly mobile. We know that 
people move. And having multiple States have to run this take a 
lot of time. Therefore, that also keeps kids lingering in 
shelter situations rather than moving forward through 
reunification.
    I agree with you that it sounds like that there needs to be 
stronger policies and practices in place that sort of outline 
what kinds of convictions or what kinds of outcomes the CA/N 
checks have that would limit the reunification of children to 
potential sponsors. That is a concern, and, again, without a 
home study or other post-release, that is one potential 
opportunity to identify potential concerns.
    Senator Portman. Thank you. And if you do not mind, if you 
could flesh our your national data base idea very quickly, and 
then I am going to turn to Senator McCaskill.
    Ms. Haynes. Currently, CA/N checks are done by each State 
and individually by each State within that State. That does not 
circle or does not come and connect all 50 States into one 
massive database, so there is no way to run one name in a 
national data base that would allow us to look at any State 
that they may have had a conviction of any kind.
    Senator Portman. All right. Thank you very much. Senator 
McCaskill.
    Senator McCaskill. We did not even get a chance this 
morning to get to all the problems we have with the portal at 
HHS as it relates to trying to determine somebody who has 
requested multiple sponsorships, somebody using the same 
address for multiple cases in terms of getting sponsorships.
    Let me ask all three of you, first, do you think there 
should be a continued role of the Federal Government once these 
children have been placed? And if you believe they should have 
a continuing role, who do you believe in the Federal Government 
from where you sit is the best equipped to take the 
responsibility of trying to monitor these children's 
environment after they have left to reside with a sponsor or 
family member? We will start with Ms. Nelms, and then go to Ms. 
Justice and then to Ms. Haynes.
    Ms. Nelms. Thank you, Senator McCaskill, for that question. 
I do believe that it would be helpful if ORR did extend their 
responsibility for the kids after reunification and currently, 
as they mentioned, the post-release services are voluntary. We 
share the concerns regarding that arrangement, and there are 
many situations where, by the time we receive a referral or 
there is capacity within the network to serve a particular 
child, they have disappeared and we are not able to locate 
them.
    And in some circumstances, we can make a report to Child 
Protective Services about that child or to law enforcement, but 
most of the time, those reports will not be accepted because 
people are free to come and go, and there is really no one with 
the authority to try to figure out where that child is.
    Senator McCaskill. So a 15-year-old child disappears, are 
not where they are supposed to be. Are you saying that if the 
child is not where it is supposed to be, then law enforcement--
or a 16-year-old child, law enforcement and Child Protective 
Services in some States will say, ``They can go where they 
want? ''
    Ms. Nelms. In many cases, that is the response we get, and 
USCRI serves children--right now, I think we are serving 
children in 40-something States. So we have experience in many 
cities across the country, and that is the response that we get 
quite often, unless we have had situations where if there was a 
trafficking concern, that they did a little more research into 
that case. But as Ms. Haynes mentioned, this population is 
highly mobile, and they move, and they can be hard to locate. 
And that is concerning. With the restrictions we have right now 
on post-release services, we do not have enough funding to 
serve the children that could benefit from post-release 
services. So they end up on a waitlist, and they could be 
released for 6 months or more.
    Senator McCaskill. This is a question I did not ask the 
first panel, but are the sponsors required to notify anyone if 
they change address?
    Ms. Nelms. They technically are supposed to, but there is 
really----
    Senator McCaskill. Do they notify ORR?
    Ms. Nelms. I would say in most cases----
    Senator McCaskill. Are they supposed to be notifying HHS?
    Ms. Nelms. They are supposed to notify the court of any 
changes of placement.
    Senator McCaskill. Immigration court.
    Ms. Nelms. Immigration court, correct. But on our end as 
post-release service workers, we do our best to locate children 
through a number of ways. We try to establish contact with 
family in home country to see where the child is. But if 4 or 5 
months have passed since they have been released from ORR care, 
it is quite difficult.
    Senator McCaskill. And, Ms. Justice, do you believe the 
Federal Government should continue to have a role after these 
children are placed?
    Ms. Justice. Right, so as I stated earlier, I am somewhat 
unfamiliar with ORR's current policies and procedures. But what 
my experience tells me is that when we in Ohio place children 
with relatives, non-relatives, or licensed foster parents, we 
need to continue to see these children to ensure their safety 
and stability.
    Senator McCaskill. Right. And, Ms. Haynes?
    Ms. Haynes. I do believe ORR is in the best position to 
provide the care and custody and ongoing supervision and 
support for these children after release to sponsors?
    Senator McCaskill. OK. By the way, is there anybody left in 
the room from HHS?
    [No response.]
    No one? Not even somebody's assistant to the assistant to 
the assistant? No one here works for HHS?
    [No response.]
    Well, that is really telling.
    OK. In your opinion, why have they changed the policy on 
home study to make it more and more circumspect in terms of how 
much time you have and how often they are done? What do you 
think is behind that, Ms. Nelms?
    Ms. Nelms. I think there is a number of factors. We saw the 
influx in 2014, and ORR I think is working very hard to expand 
their resources, and a lot of those resources have been 
directed to the residential facilities. And the expansion of 
these post-placement services, home study services, has not 
kept up with the growth in the population, and so I think there 
are ways the reunification process can be streamlined, and some 
children are going to good sponsors, and they do not remain in 
care for months on end.
    So there are situations where there are benefits to that, 
but I think that the largest part of this recent policy change 
is that there is a tremendous waitlist right now for children 
waiting for home study and post-release services, and the 
waitlist fluctuates between 1,400 and 2,000 kids at any given 
time waiting for a service that one of our organizations 
provides because capacity has not been expanded. And so I think 
in looking to address that, children are released more quickly 
if home studies take 10 days versus 30 days.
    Senator McCaskill. So resources are not helping in that 
they are not able to utilize those resources quickly enough to 
deal with being overwhelmed by the great increase in numbers of 
children? Is that essentially what you are saying? Because, 
they have money. I mean, the Chairman said they have money. We 
have looked; they have money. And I know they have hired 
contractors to help with some of this. Always there is a 
contractor. So I am curious if from your perspective is it just 
they have not got the infrastructure in place and so, for 
example, changing the home study period of time from 30 days to 
10 days? I mean, obviously, that is really problematic. Is that 
just a matter of them not having the capacity to handle these 
kids?
    Ms. Nelms. USCRI serves 2,500 kids a year through our home 
study and post-release service program. We are one of 11 
providers that works with these children, and in conversation 
with many of the other programs, we are ready and willing and 
able to add additional capacity to serve these children so they 
are not waiting months at a time for our social workers to get 
to them. So I am not sure exactly where the disconnect----
    Senator McCaskill. Well, I would like to have staff 
followup, if the Chairman would agree, with the 11 different 
providers that you just referenced and talk about the capacity 
you have and figure out where the disconnect is between the 
capacity that is out there and the fact that we are not, in 
fact, utilizing, that we are going to this third category of 
people that, if you cannot prove you are really related to the 
child, you get the child anyway. I would like to kind of drill 
down. Do you feel like there has been enough conversation 
between these groups and ORR as to the problems that are 
clearly present in the system as it is now operating?
    Ms. Nelms. You are speaking to one of the recommendations 
that we made. I think we could do a better job at 
collaborating, and many of us have served these kids for many 
years, and we know the challenges and the situations that they 
find themselves in that are very troubling. And it would be 
good if we could increase that communication to talk through 
potential policy changes before they occur----
    Senator McCaskill. Right.
    Ms. Nelms [continuing]. And have these negative effects 
on----
    Senator McCaskill. Yes, you all should be heard from before 
they do--I mean, they have been working on policy and programs 
now for, it will be close to a decade, and we still do not have 
anything. So it seems like--it is not like they are rushing 
them to print. So it seems like to me there is time to talk to 
the people who are on the ground dealing with these children 
day to day.
    Let me close. I know I am over time, and I appreciate the 
Chairman's indulgence. But let me just close speaking to the 
three of you. I am sure that all three of you are college-
educated, correct?
    [Witnesses nod heads in agreement.]
    And all three of you had choices about your careers, and 
all of you decided that you were going to go into a line of 
work that is full of heartbreak and sadness.
    [Witnesses nod heads in agreement.]
    And I just want to thank you.
    Ms. Nelms. Thank you.
    Senator Portman. Thank you, Senator McCaskill.
    Thank you for what you do every day for the kids who we 
both represent, but also thank you for being willing to help us 
to improve conditions for kids going forward. I mean, this is, 
I think, an extraordinary failure. We just talked a little 
about the importance of home studies and post-release services. 
Again, look at this email that, without this investigation, we 
never would have known about. This is an email written by the 
gentleman who was here earlier, Mr. Greenberg: ``I assume the 
reason for under 13 is that it is a smaller number for a pilot 
and that we'll have the greatest concern about young children 
less able to communicate about their need for help. Right? But 
this is probably less likely to pick up the debt labor group.'' 
Which is what this was. These were young kids. They were 
minors.
    ``Do you think it would go too far to extend to all 
children going to non-relatives?'' They did not do it. I mean, 
after that question, what would the answer be? The answer is, 
``Of course we would want to cover these kids who are more 
likely to be subject to the kind of trafficking that we see of 
kids having to work off the debt. Their paychecks were 
withheld. I mean, these kids were working 12 hours a day, 6, 7 
days a week, no pay, because their paychecks were taken to pay 
their debt.
    Finally, just to make this clear, on post-release services, 
which is what this is about in addition to home visits, the 
sponsor can just say no. Under current HHS policy, current 
policy, the sponsor can say to you, Ms. Haynes, as you go to 
knock on the door to say, ``Just checking to see how this young 
man or young woman is doing, to see whether what is on this 
application is still valid,'' they can say, ``Take a hike.'' 
And your job is then to report back to HHS, ``Case closed.'' 
That is what they ask you to do.
    So, yes, there has been some progress made, as I said--we 
appreciate that--including this pilot program, but it is not a 
matter of resources. We have been able to go through the 
appropriations process and look, and it is not just recent. 
During the time period we are talking about, 2014, they did not 
spend 20, 25 percent of their budget. It is a matter of 
commitment, and it is a matter of organizing that Department in 
a way to handle this big influx. I mean, it is not a mystery 
that this is going to continue to be an issue.
    So Senator McCaskill and I want your continued input 
because we want to be sure that one of two things happen: 
Either HHS makes further progress, gets its act together, 
follows, again, recommendations that Senator McCaskill says 
have been out there for almost a decade, puts together a plan, 
working with DHS and others to ensure we know who is 
responsible for these kids. This Flores Agreement that they 
talked about as a way to get out from their responsibility, it 
does not limit their ability to take care of these kids. In 
fact, it insists that these kids are taken care of. It says to 
a family member or a family friend ``who is capable and willing 
to care for the minor's well-being.'' That is in it. The 
legislation Senator McCaskill talked about earlier, it 
specifically says ``capable of providing for the children's 
physical and mental well-being.''
    So we think that they have the authority to do it, but if 
they are not going to take care of these kids, protect them as 
the law provides, then we are going to look at additional 
legislation that makes it absolutely clear, or other ways, 
perhaps through the appropriations process, to deal with this. 
So we want your continued input. We know this is a tough issue. 
We know this is not going to be easy to address. We know from 
the first quarter results that this is an issue that is likely 
to increase pressure on ORR. But, boy, we have revealed so many 
failures here, including lack of consequences. You talk about 
the fact that they are supposed to tell HHS that they changed 
addresses. I would ask you, Ms. Haynes and Ms. Nelms, do you 
think there is any enforcement of that, any consequences? Not 
based on our study. Zero. No accountability.
    So we have an opportunity here to make a difference in the 
lives of many of these children going forward, and we will look 
forward to working with you to do that.
    I want to thank Senator McCaskill for being a great partner 
on this. It has been heartbreaking. As she says, it is a tough 
issue. But it also an interesting challenge for all of us to 
say, regardless of how we feel about the immigration policy, 
and there are big differences of opinion on that--I expressed 
earlier some of my concerns about that Executive Order (EO). 
But when these kids are here, when they are in the custody of 
the U.S. Government, they cannot end up in that trailer, 
working 12 hours a day as minors, 6, 7 days a week, with no 
pay. It cannot happen, not in this country.
    So thank you, Senator McCaskill, thanks to your staff. The 
staff have worked really hard on this, and I want to 
particularly single out Rachael Tucker of my staff for her 
remarkable work on this. And I want to thank you all for being 
here today to share your testimony and your commitment to 
continue to work with us on this issue.
    The hearing record will remain open for 15 days for any 
additional comments or questions by any of the Subcommittee 
members. And with that, this hearing is adjourned.
    [Whereupon, at 1:06 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
